<html>
<title> - IMPLEMENTATION AND REAUTHORIZATION OF THE PERSONAL RESPONSIBILITY AND WORK OPPORTUNITY RECONCILIATION ACT OF 1996</title>
<body><pre>[Senate Hearing 107-500]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 107-500

 
 IMPLEMENTATION AND REAUTHORIZATION OF THE PERSONAL RESPONSIBILITY AND 
              WORK OPPORTUNITY RECONCILIATION ACT OF 1996
=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

 THE IMPLEMENTATION AND REAUTHORIZATION OF THE PERSONAL RESPONSIBILITY 
   AND WORK OPPORTUNITY RECONCILIATION ACT OF 1996 IN INDIAN COUNTRY

                               __________

                              MAY 10, 2002
                             WASHINGTON, DC
                        U.S. GOVERNMENT PRINTING OFFICE
80-278                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. INOUYE, Hawaii, Chairman

            BEN NIGHTHORSE CAMPBELL, Colorado, Vice Chairman

FRANK MURKOWSKI, Alaska              KENT CONRAD, North Dakota
JOHN McCAIN, Arizona,                HARRY REID, Nevada
PETE V. DOMENICI, New Mexico         DANIEL K. AKAKA, Hawaii
CRAIG THOMAS, Wyoming                PAUL WELLSTONE, Minnesota
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
                                     MARIA CANTWELL, Washington

        Patricia M. Zell, Majority Staff Director/Chief Counsel

         Paul Moorehead, Minority Staff Director/Chief Counsel

                                  (ii)




  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Apesahnakwat, public relations, Tribal TANF, CA..............    26
    Baucus, Hon. Max, U.S. Senator from Montana..................     7
    Cornell, Stephen, director, Udall Center for Studies in 
      Public Policy, University of Arizona.......................     5
    Cross, Terry, executive director, National Indian Child 
      Welfare Association........................................    33
    Fagnoni, Cynthia M., managing director, Education, Workforce 
      and Income Security Issues, General Accounting Office......     3
    Hicks, Sarah, director, Welfare Reform Program, National 
      Congress of American Indians...............................    22
    Hill, Virginia, executive director, Torres Martinez Tribal 
      TANF.......................................................    26
    Howard, Doug, director, Michigan Family Independence Agency 
      and president, American Public Human Services Association..    24
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, chairman, 
      Committee on Indian Affairs................................     1
    Johnson, Hon. Tim, U.S. Senator from South Dakota............     9
    Larin, Kathy, job leader.....................................     3
    Massey, Dallas, chairman, White Mountain Apache Tribe........    12
    Peters, Michael, tribal secretary, Sisseton-Wahpeton Sioux 
      Tribe......................................................    17
    Quaid, Julie, president, National Indian Child Care 
      Association, Confederated Tribes of Warm Springs...........    30
    Wall-McDonald, Teresa, Salish and Kootenai Tribes............    19
    Windy Boy, Alvin, chairman, Chippewa Cree Tribe, Rocky Boy 
      Reservation................................................    14

                                Appendix

Prepared statements:
    Ahsogeak, Perry R., vice president of programs, Cook Inlet 
      Tribal Council, Inc........................................    39
    Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      vice chairman, Committee on Indian Affairs.................    87
    Cornell, Stephen.............................................    57
    Cross, Terry.................................................    47
    DeRocco, Emily Stover, assistant secretary, Employment and 
      Training, Department of Labor..............................    68
    Hicks, Sarah.................................................    40
    Peters, Michael..............................................    43
    Quaid, Julie (with attachment)...............................    72
    Trope, Jack F., executive director, Association on American 
      Indian Affairs, Inc........................................    45







 IMPLEMENTATION AND REAUTHORIZATION OF THE PERSONAL RESPONSIBILITY AND 
              WORK OPPORTUNITY RECONCILIATION ACT OF 1996

                              ----------                              


                        WEDNESDAY, MAY 10, 2002


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
485, Senate Russell Building, Hon. Daniel K. Inouye (chairman 
of the committee) presiding.
    Present: Senators Inouye, Baucus, and Johnson.

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
             CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. The committee meets this morning to receive 
testimony on the implementation of the Personal Responsibility 
and Work Opportunity Reconciliation Act of 1996 in Indian 
country.
    Seven years ago when this Act was being formulated, the 
Committee on Indian Affairs worked with the Senate Finance 
Committee to address the unique circumstances of Indian country 
where unemployment rates in tribal communities ranging from 50 
percent to higher is unfortunately common and where the goal of 
transitioning from welfare to work is frustrated by the fact 
that there simply are not many job opportunities on or near 
many Indian reservations.
    Studies inform us that across Native America thousands of 
Indian adults seized the opportunity of welfare reform 
initiatives to acquire new skills and take advantage of job 
training and education but finding work in remote, rural areas 
has proven to be an almost insurmountable obstacle.
    Add to that, where there are high rates of unemployment and 
poverty, people usually don't have or can't afford 
transportation to take them to and from places of work that are 
often located at great distances from their home communities. 
The lack of child care options for single parents trying to 
enter the work force further frustrates the ability of those 
who are committed to leaving a life dependent on welfare 
behind.
    The act provided authority for tribal governments to assume 
responsibilities for the administration of welfare programs 
formerly administered by the States but the act did not provide 
the kinds of resources that had been provided to States through 
various block grants to develop the necessary infrastructure to 
administer welfare programs.
    From 1980 to 1992, States received approximately $542 
million for automated computer systems to administer welfare 
programs. Accordingly, many tribal governments simply didn't 
have the computer systems and administrative structures in 
place to develop and administer the Temporary Assistance for 
Needy Families Program.
    There are many complex issues associated with how welfare 
to work clients are counted by the States and to what extent 
State numbers draw from unemployment on Indian reservations for 
purposes of receiving Federal funding but do not commit a 
proportionate share of the resources and provision of welfare 
to work program services to Indian people.
    So today we will receive testimony from representatives of 
the General Accounting Office [GAO] who at the request of the 
Committees on Indian Affairs and Finance are completing a study 
on the implementation of welfare reform in Indian country. In 
addition, we will hear from other witnesses today who have 
studied some aspect of how welfare reform is working in Native 
America as well as from tribal leaders and program 
administrators who will relate their experiences with 
developing effective temporary assistance for needy families.
    It is most unfortunate that with all this important and 
useful information that will be placed in the official records 
of the Senate today, the Federal agency that is charged with 
the primary responsibility of implementing welfare reform, the 
Department of Health and Human Services, has declined to appear 
before the committee this morning on the grounds that they are 
too busy. Sadly, it would seem that the department doesn't 
place a very high priority on welfare reform in Indian country.
    A few days ago, Senator Baucus introduced a bill entitled, 
``The American Indian Welfare Reform Act,'' S. 2484. This bill 
seeks to address many of the special circumstances in Indian 
country and to provide a great array of resources for tribal 
TANF programs.
    So we look forward to the testimony this morning as we work 
with our colleagues on the Senate Finance Committee to assure 
that welfare reform initiatives are adapted to be more 
effective in serving the needs of Native America. Looking upon 
the problem before us, it once again reminds us that possibly 
the best solutions to Indian problems may be found in Indian 
country. We in Washington are men and women of good intentions 
and this Act was an expression of good intentions but somehow 
it did not work in Indian country because some of us were not 
aware of the problems. Perhaps the drafters were not aware that 
the distances were great, jobs opportunities were scource or 
that poverty was that extensive, or that in Navajo land, only 
25 percent of the people have telephones. These are some of the 
small things that good meaning people may not have known.
    I have here a statement of Senator Ben Nighthorse Campbell, 
the vice chairman of this committee, who has other 
responsibilities, so without objection, his statement will be 
made a part of the record.
    [Prepared statement of Senator Campbell appears in 
appendix.]
    The Chairman. Our first panel consists of the following 
distinguished persons: The managing director, education, 
workforce, and income security issues, General Accounting 
Office, Cynthia Fagnoni and the director, Udall Center for 
Studies in Public Policy, University of Arizona in Tucson, 
Stephen Cornell.

STATEMENT OF CYNTHIA M. FAGNONI, MANAGING DIRECTOR, EDUCATION, 
   WORKFORCE AND INCOME SECURITY ISSUES, GENERAL ACCOUNTING 
         OFFICE, ACCOMPANIED BY KATHY LARIN, JOB LEADER

    Ms. Fagnoni. Good morning.
    I would like to introduce also Kathy Larin who is with me. 
She was the Job Leader on the project we are working on.
    The Chairman. Welcome.
    Ms. Fagnoni. I am pleased to be here today to discuss how 
American Indians have fared under welfare reform and issues 
some tribes have faced in administering tribal TANF programs. 
My testimony today will focus on four issues: The economic 
conditions on reservations; how the number of American Indians 
receiving TANF assistance has changed since the welfare reform 
law was enacted; how tribes have used the flexibility in the 
law to design and administer their own programs; and challenges 
tribes have faced in implementing tribal TANF programs.
    This testimony is based on ongoing work we are conducting 
for you, Mr. Chairman, as well as Senators Baucus, Bingaman, 
Daschle, and Conrad.
    First, regarding economic conditions, our work shows that 
tribes have engaged in various strategies to stimulate economic 
growth, many focusing on the development of tribally owned 
enterprises, yet despite these efforts, unemployment and 
poverty rates remain high on many reservations.
    To give just one example from the site visits we made, on 
the Blackfeet Reservation of Montana, 74 percent of adults are 
unemployed and of those who are employed, 22 percent live in 
poverty, according to the most recent BIA data. Furthermore, as 
Dr. Cornell will also discuss, many tribes lack some of the key 
factors that have been shown to lead to economic growth on 
reservations.
    Regarding the second issue, TANF caseloads, the number of 
American Indians receiving TANF benefits nationally has fallen 
over the past several years, as it has for other groups, but on 
many reservations, the number of American Indian families on 
welfare has stayed the same or increased. In some States, most 
notably South Dakota, Montana, and North Dakota, American 
Indians represent an increasing share of the States' TANF 
caseloads. In South Dakota, for example, American Indian 
families represent nearly 80 percent of the TANF caseload, up 
from 60 percent in 1994.
    Turning now to tribal TANF programs, our third issue, the 
Department of Health and Human Services has to date approved 36 
tribal TANF programs serving 172 tribes. Most of these programs 
have used the flexibility in the law to tailor their programs 
to their communities. Tribal TANF programs are given the 
flexibility to define the activities they count as work more 
broadly than State TANF programs. Most programs have taken 
advantage of this flexibility, allowing their recipients to 
participate in such activities as traditional subsistence 
hunting and gathering, cultural activities, and self-employment 
that would not be counted as work activities under State TANF 
programs.
    For example, the Port Gamble S'Klallam Tribe, whose 
reservation is located on Washington's Puget Sound, allows 
recipients to count time spent engaged in traditional 
subsistence gathering and fishing.
    The tribal TANF programs that responded to our survey 
reported that they tend to encourage recipients to engage in 
education or training activities rather than emphasizing job 
search and work. In contrast, a majority of TANF recipients 
engaged in work activities in State programs are in 
unsubsidized jobs.
    Tribal TANF programs also have more flexibility than States 
in setting their own time limits on receipt of cash assistance, 
but so far, HHS has not approved any plans that have time 
limits over the 60-month maximum allowed under State programs. 
Tribes also have more flexibility than States in determining 
how many TANF recipients can continue to receive benefits after 
they reach their time limits. For example, 10 of the 36 
programs have chosen to exempt more recipients who reached 
their time limits than is permitted under State programs.
    Of course many tribal TANF programs are not subject to time 
limits because any time spent living on a reservation with an 
unemployment rate greater than 50 percent does not count toward 
an individual's time limit. Of the 29 tribal programs that 
serve a single tribe, 16 are located on reservations that have 
unemployment rates of 50 percent or greater according to the 
most recent BIA data.
    Last, tribes have faced a number of challenges as they 
implement tribal TANF programs. Many tribes have found that 
data on American Indians are inaccurate, complicating the 
determination of tribal TANF grant amounts and making it 
difficult for tribes to design and plan their programs. In 
addition, because tribes are starting to administer TANF for 
the first time, many do not have the infrastructure they need, 
nor do they have the experience or expertise in administering 
key program features such as determining eligibility and 
setting up information systems. The Fort Belknap Tribal TANF 
Program in Montana for example serves 175 families, yet it does 
not have an automated information system for collecting, 
processing, and reporting TANF data.
    Tribes have secured contributions from a variety of sources 
to cover their significant start-up costs and ongoing operating 
expenses. In addition, some tribes have received technical 
assistance from the State and the Federal Government.
    I would like to close by noting that tribes are just 
beginning to administer their own welfare programs, tailor the 
design of their programs to their communities and engage their 
members in a broad array of work activities. It is not yet 
known whether these programs will help recipients find 
employment before reaching time limits or whether the 
flexibility afforded the tribal TANF programs will allow them 
to continue to provide benefits to those who reach the time 
limits without obtaining a job.
    Whether tribal TANF programs will be successful in moving 
more American Indians from welfare into the work force will 
ultimately depend not only on the ability of the programs to 
meet their recipients' needs but also on the success of 
economic development efforts in providing employment 
opportunities for American Indians.
    This concludes my prepared statement. I would be happy to 
answer any questions you may have.
    [Prepared statement of Ms. Fagnoni appears in appendix.]
    The Chairman. Thank you very much, Ms. Fagnoni.
    We will listen to Dr. Cornell before we ask questions. Dr. 
Cornell?

   STATEMENT OF STEPHEN CORNELL, DIRECTOR, UDALL CENTER FOR 
        STUDIES IN PUBLIC POLICY, UNIVERSITY OF ARIZONA

    Mr. Cornell. Thank you and I appreciate the opportunity to 
talk with you this morning.
    This past year, the Native Nations Institute for 
Leadership, Management and Policy at the University of Arizona 
and the Buder Center for American Indian Studies at Washington 
University in St. Louis were asked by the National Congress of 
American Indians to analyze the impact of the 1996 legislation 
on American Indians and Alaska Natives.
    Dr. Eddie Brown of Washington University and I directed 
that study and in the next few minutes I will touch briefly on 
some of the key findings from it. The news is both good and bad 
and there are six points I wish to make.
    The first is that the 1996 legislation clearly has enhanced 
tribal self governance and improved welfare service provision 
in Indian country because it allowed Indian nations to design 
and administer their own TANF and related programs with direct 
Federal support. It has allowed those nations to design those 
programs to speak directly to reservation needs, given them 
improved flexibility, improved the accessibility of welfare 
related services, and the evidence is substantial that this has 
had positive benefits on the delivery of welfare services 
across Indian country in those cases where tribes have taken 
over their own TANF programs. This is the good news.
    The bad news is that despite this, welfare reform has been 
substantially less successful in Indian country than elsewhere 
in moving individuals from welfare to work or in reducing 
poverty. Ms. Fagnoni has already summarized some of the 
statistics on that. We do not have a lot of research on the 
impact of welfare reform on Indian family and community well 
being but the data we do have are not encouraging.
    The one longitudinal study to date in Arizona found that 
nearly one-quarter of American Indians who had moved from 
welfare to work under the new legislation had stopped working 
within 3 months, one-half were not working after 1 year, only a 
small portion of those who had made the move were working full 
time, even among those with full-time employment, significant 
numbers reported they were unable to afford enough food for 
their families or had lost gas or electricity services because 
of their inability to pay utility bills.
    Why are we seeing these discouraging outcomes? One reason 
certainly is resources and I could not put it better than you 
did yourself in the opening remarks, Indian tribes have been 
penalized for being tribes and have not received the same 
resources that States have received for the administration of 
TANF programs and child care programs.
    Another reason for this discouraging outcome is the 
distinctive nature of some reservation populations. These 
resource inequities are exacerbated by the fact that tribal 
TANF populations typically include higher proportions of what 
are commonly known as hard to serve clients who face multiple 
barriers to employment. The history of dependency and economic 
stagnation on reservations has left behind high proportions of 
residents with little work experience and few job skills and 
often high proportion of individuals suffering from behavioral 
problems. These populations are particularly difficult and 
expensive to serve.
    Yet another reason for discouraging outcomes on Indian 
reservations is the combination of particular obstacles to 
employment that reservation residents face. The three leading 
obstacles that emerged in our study were first, inadequate 
transportation. You have already mentioned that yourself. The 
distances on reservations are often long to the workplace. 
Large numbers of Indian families do not own an automobile and 
public transportation is essentially absent. This leaves many 
TANF recipients literally unable to get to work. While there 
are some Federal programs that do speak to these issues, tribal 
access to these programs has been limited.
    The second obstacle is the lack of child care facilities. 
The 1996 legislation expanded the Child Care and Development 
Fund which assists those leaving welfare in obtaining child 
care. Tribes can take advantage of these funds and have some 
flexibility in doing so. The legislation also significantly 
increased other funds that tribes could use to support child 
care and these developments have had positive effects. However, 
CCDF expires this year and even with these additional funds, 
the lack of child care services in much of Indian country 
prevents many reservation residents from taking regular jobs.
    The third obstacle is simply the lack of appropriate 
skills. Combined with the frequency of behavioral problems, 
this presents tribes with daunting skills and job training 
challenges. While there is Federal funding for these kinds of 
issues, that funding has not increased since the passage of 
PRWORA in 1996. In short, a critical piece of the welfare to 
work puzzle is severely underfunded in Indian country.
    I would like to mention one positive development in that 
regard. Public Law 102-477, the Indian Employment, Training and 
Related Services Demonstration Act allows tribes with funding 
for several employment and training related programs, including 
child care, to pool those resources and integrate these 
services even if they are funded by different Federal agencies.
    This allows tribes to operate programs under a single plan 
and budget. The evidence is that this has been very successful 
as tribes have saved staff time, reduced paperwork, established 
one stop shops and responded where needs are greatest, serving 
more people and improving effectiveness. These kinds of models 
deserve our support.
    Finally, the largest barrier to welfare reform in Indian 
country is simply job scarcity. There is an enormous gap on 
many reservations between the size of the labor force and the 
number of jobs generated in local economies. Under these 
conditions many of those leaving the welfare rolls face a stark 
set of options, either their homelands in search of work 
elsewhere or rely on the already overburdened, informal family 
support networks through which many reservation residents 
struggle to survive.
    Current welfare policy has paid little attention to this 
problem. In a sense, the supply side has been ignored, moving 
people from welfare to work is an admirable policy goal but it 
has little chance of success if there is no work to move to. 
Until Federal policy takes seriously the need for reservation 
economic growth and invests in building the growth capacities 
of Indian nations, welfare reform in Indian country will spin 
its wheels.
    Yet we know that economic development in Indian country can 
work. We have evidence of tribes that are building sustainable 
and self determined economies. The key factors appear to be the 
exercise of tribal sovereignty, capable governing institutions 
that match indigenous cultures, and strategic thinking for the 
long term future.
    What really is required is investments in nation building, 
in particular in the institutional capacities of tribal 
governments, as well as support for tribal sovereignty so that 
Indian nations can shape economic growth to their own 
priorities and goals.
    Our overall conclusion is there have been some significant 
successes in the welfare arena in Indian country, particularly 
as some nations have responded to the legislation with 
resourceful, innovative, welfare programs but while the shift 
in the legislation toward tribal self governance is positive 
and productive, the combination and concentration of obstacles 
to welfare reform on reservations, the lack of program 
resources, and the lack of attention to economic growth as a 
welfare reform strategy mean that current welfare policies are 
likely to fail in much of Indian country.
    Thank you.
    [Prepared statement of Mr. Cornell appears in appendix.]
    The Chairman. Thank you very much, Dr. Cornell.
    Two days ago, a measure was introduced in the U.S. Senate 
entitled called ``American Indian Welfare Reform Act,'' S. 
2484. Many of us look upon this measure as one that may respond 
to many of the problems that will be identified this morning. I 
am pleased and honored to call upon Senator Max Baucus the 
chairman of the Senate Finance Committee, and also the author 
of this measure, if he would wish to say a few words now.

    STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM MONTANA

    Senator Baucus. Thank you very much, Mr. Chairman.
    I thank all the members and everyone here today seeking the 
same objective, namely how to provide better welfare reform 
legislation to help all our friends in Indian country.
    Mr. Chairman, I thank you for allowing me to stop by and 
make a couple of brief statements.
    I would like to begin with the 1996 law which I supported. 
As we know, it introduced sweeping changes in the way welfare 
is viewed. One important aspect of the 1996 law allowed States 
to operate their own programs and also it permitted Indian 
tribes to operate their own welfare programs. That was provided 
for the first time. I think this is very wise policy and is 
certainly consistent with the important value of tribal 
sovereignty which I support.
    My own State of Montana has several tribes and so I have 
given quite a bit of thought to how we could build upon the 
provisions of the 1996 law. Too often, as we know, not only in 
Montana but elsewhere, poverty has an Indian face. I might say 
that although there has been about a 50-percent reduction in 
welfare caseload nationwide since the last law was enacted, 
that is much less true in Indian country and in my State of 
Montana, 50 percent of all recipients today on welfare are 
Native Americans. It is a statistic that is just glaringly a 
problem that has to be solved.
    Also, according to the Census Bureau, about one-quarter of 
all Native Americans live in poverty, more than twice the 
national rate; the average household income for Native 
Americans was about three-quarters of the rest of America, and 
that simply is not right. Welfare reform has to work for 
everyone, not just those not in Indian country.
    Luckily the provisions of the 1996 law give a good start. 
The bill I introduced last Wednesday is a product of working 
very closely with a lot of Native Americans not only in my 
State but around the country and there is one aspect I really 
want to focus on very, very briefly and that is the section on 
economic development.
    In the last bill, the focus was on job training, on 
education, but since 1996, we have found that all the job 
training in the world doesn't do much good unless there are 
jobs available. I realize there are many tribes that do not 
operate their own TANF program but nevertheless, I believe it 
is very important that States work with those tribes to develop 
their own plans.
    In my legislation, I direct States to much more directly 
consult with tribes for their own plan. I have directed States 
to describe how they are providing equitable access.
    There is much, much more obviously. I don't want to take 
your time but I do want to thank you very much for holding this 
hearing because this is a critically important aspect of 
welfare reform. The testimony you are getting here today will 
go a long way to helping all of us in the Senate decide which 
provisions make the most sense not only for America but more 
specifically for Indian country.
    I would like to welcome two Montana panelists here today. 
One is Alvin Windy Boy, chairman of the Chippewa Cree and he 
will give testimony a bit later and Teresa McDonald, 
representing the chairman of the Confederated Salish and 
Kootenai Tribes. Those of us who know Teresa know that she does 
a bang up job. They are going to be testifying about TANF 
changes they think make the most sense. I know they will give 
good advice, as will the other witnesses.
    I thank you very much, Mr. Chairman. You are providing 
tremendous service here. As I said, we want to work with you.
    The Chairman. Chairman Baucus, thank you for your 
leadership and your wise words. We will do our very best to 
handle the bill you have just introduced in an expedited 
fashion.
    It is my pleasure to call upon Senator Johnson.

 STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Mr. Chairman.
    Briefly, I want to thank you again for holding this very 
timely and essentially a very important hearing relative to 
welfare authorization as it relates to Indian country.
    I want to thank Senator Max Baucus as well who has been a 
champion of Native American issues is critically well 
positioned as chairman of the Finance Committee to play an 
important role.
    This hearing is an essential one. I appreciate the 
testimony of this panel. We have unique needs in Indian country 
related to high levels of poverty, lack of jobs, distances, 
lack of child care, lack of transportation and so many other 
concerns that are somewhat unique to Indian country as opposed 
to other communities across the Nation.
    Later on today, we are going to hear testimony of Michael 
Peters, secretary of the Sisseton Wahpeton Sioux Tribe of South 
Dakota. The Sisseton Wahpeton is the only tribe in South Dakota 
of our nine tribes that runs its own TANF program. I have been 
impressed with what they have been able to do and look forward 
to his insights, along with the insights of the rest of the 
panel members.
    Thank you for holding this hearing today. I will submit a 
full statement in writing.
    [Prepared statement of Senator Johnson appears in 
appendix.]
    The Chairman. Do you have questions?
    Senator Johnson. I have no questions for this panel.
    The Chairman. I have a few questions.
    Ms. Fagnoni, do you have any suggestions as to what 
incentives we can provide that can best assist tribes in 
improving their TANF programs? You have indicated that those 
who have had some flexibility in administering programs do 
succeed. Are there other incentives we can use?
    Ms. Fagnoni. One of the things we identified in going out 
and meeting with both States as well as tribes and 
representatives from their programs was there are some aspects 
of funding that are available to State programs but not 
available to the tribal programs. We cite a couple of those in 
our testimony.
    One is in the 1996 welfare reform legislation. There were 
what are called different types of performance bonuses that 
States could decide to apply for, things that would give them 
some additional funding if they met some goals in terms of job 
placement and retention, earnings and things like that. It 
might be worth taking a look at whether it would be helpful to 
allow tribal programs to also have access to those bonuses.
    There is also another area where it is something to 
consider, but I know States would have a viewpoint on this. In 
the funding that States receive, there is a portion that is 
Federal and a portion that is State which is called 
maintenance-of-effort funding. For tribes that assume 
responsibility for their own programs, the State requirement 
for maintenance of effort gets reduced to take that into 
consideration. There has been some discussion that if that 
requirement were not reduced, that might provide States with 
some incentive to provide some portion of the maintenance-of-
effort funds to the tribal programs. Some States already do 
that, some States don't. That is another example.
    The other thing we heard which may or may not be a funding 
issue, may have more to do with how to best enable tribes to 
take advantage of the resources that may be out there. The 
tribes that do use the 477 Program find that to be useful. You 
will probably hear from them about that in trying to streamline 
and merge different funding streams to their advantage.
    The other thing we heard from a number of programs was the 
need for more systematic technical assistance from the States 
and Federal Government.
    These are some examples of both funding as well as 
assistance that might be helpful or things to consider.
    The Chairman. Under the law, tribes operating TANF programs 
may define what work activities are all about. Is that 
definition subject to approval?
    Ms. Fagnoni. Yes; the tribal programs are subject to 
approval by HHS. HHS has approved plans that have defined work 
activities more broadly than would be allowed under the State 
programs. For example, some tribes have taken advantage of this 
and will include teaching cultural activities as a countable 
work activity and include subsistence types of hunting and 
gathering as a countable work activity, so they are allowed to 
use better definitions. A number of tribes have taken advantage 
of that to more broadly define work activities for purposes of 
meeting their work participation goals.
    The issue then becomes how does this help move people 
ultimately into a job and self sufficiency. It is certainly 
something that can help in the short term for work 
participation goals but I think it remains to be seen how this 
flexibility helps or doesn't in terms of self sufficiency which 
is the ultimate goal.
    The Chairman. Is this information communicated with all 
tribes in our Nation? For example, I would assume that some of 
the better equipped tribes would know what is happening in the 
world but there may be some with limited communication, 
transportation and such, who may not be aware that in Tribe A 
you may use salmon fishing as an authorized work activity and 
if they knew that, they might do the same thing. Do we have a 
system whereby everyone is made aware of what other tribes are 
doing under TANF?
    Ms. Fagnoni. What we heard going around the country and in 
talking with people is there really isn't a system like that in 
place. I know the tribes themselves have gotten together in 
different forums to try to share information but what we heard 
is there are a number of individuals and officials who felt 
they wished there were a better mechanism for learning about 
best practices of different programs.
    The Chairman. Have you had an opportunity to study Senator 
Baucus' bill, the new one?
    Ms. Fagnoni. We really haven't at this point.
    The Chairman. Are you ready to make any assessment or 
suggestions?
    Ms. Fagnoni. As I said, I think there are some places in 
terms of performance bonuses and maintenance of effort that 
might be something to consider but certainly you would want to 
hear the viewpoint of States, particularly on the maintenance-
of-effort issue. I think there is legitimate interest in 
additional technical assistance. Those are the pieces that 
really surfaced from the specific work we did for this project.
    The Chairman. Dr. Cornell, both Senator Baucus and you have 
emphasized economic growth and economic development. What is 
the use of training people if there are no jobs available? Have 
you had an opportunity to look over Senator Baucus' bill?
    Mr. Cornell. I am afraid I haven't, Senator, although I was 
encouraged by his statement that the emphasis in this bill was 
in part on economic development. I would want to see what the 
provisions of the bill say.
    The Chairman. What sort of economic development would you 
suggest?
    Mr. Cornell. I am not convinced that there is an economic 
development strategy that can be applied across Indian country. 
What we have seen is that those Indian nations with appropriate 
governing institutions that have been able to build an 
environment in which entrepreneurs want to work, people want to 
invest energy, time and money, those Indian nations are 
developing their own strategies and they range very widely from 
private entrepreneurship and small business startups popping up 
around reservations to major tribally owned and operated 
enterprises, usually responding to the specifics of the local 
market and situation.
    I think the critical thing is allowing tribes the 
opportunity to build economic growth strategies of their own 
and investing in the institutional capacity to bring those 
strategies to life.
    The Chairman. In other words, there is no one set scheme 
that can be initiated in Washington; it has to be tailored by 
tribes in their locale?
    Mr. Cornell. I think when it comes to economic strategies, 
part of the difficulty has been schemes that were originated 
somewhere else and then applied in Indian country. I think what 
Washington could do is pay more attention to the institutional 
environment in which economic development is trying to take 
root and investing in supporting sovereign tribal governments 
in exercising their sovereignty effectively through strong 
tribal courts and those kinds of institutional mechanisms.
    Those then put in place the groundwork with which tribes 
can pursue their own strategies more effectively. I think that 
is more the role of Washington in that game, the institutional 
capacity investments rather than coming up with specific 
economic strategies and then trying to apply them in very 
different situations.
    The Chairman. May this committee submit questions to both 
of you because we would like to do that, taking into 
consideration as well the new bill introduced by Senator 
Baucus?
    Ms. Fagnoni. Certainly.
    Mr. Cornell. Yes.
    The Chairman. As a result, we will keep the record open for 
4 weeks to give you ample time to respond. Most of the 
questions I have here are rather technical in nature.
    With that, I thank you very much for joining us.
    Our next panel consists of: Dallas Massey, Sr., chairman, 
White Mountain Apache Tribe, White River, AZ; the chairman of 
the Chippewa Cree Tribe of Rocky Boy's Reservation, Box Elder, 
MT, Alvin Windy Boy, accompanied by the director of the Cherish 
Our Indian Children, Toni Plummer; the tribal secretary of the 
Sisseton Wahpeton Sioux Tribe of Agency Village, SD, Mike 
Peters; Teresa Wall-McDonald, Salish and Kootenai Tribes of 
Pablo, MT.
    May I first call upon Chairman Massey.

  STATEMENT OF DALLAS MASSEY, CHAIRMAN, WHITE MOUNTAIN APACHE 
                             TRIBE

    Mr. Massey. Good morning, Mr. Chairman and honorable 
members of the committee. It is a privilege and honor for me as 
chairman of the White Mountain Apache Tribe to address the U.S. 
Senate Committee on Indian Affairs on behalf of your 
constituents who are my people, Fort Apache Indian Reservation, 
and our relatives in Indian country as a whole.
    Our purpose today is to discuss the implementation and 
reauthorization of Personal Responsibility and Work 
Reconciliation Act of 1996 which I will refer to simply as the 
act.
    In the interest of working with you for the privilege of 
millions of citizens of the United States who are privileged 
and honored to be Native Americans, I request your swift 
promulgation of welfare reform legislation tailored to the 
unique needs of Indian country that realistically fulfills the 
purpose of the act because while it helps, it fails to address 
the root of the overwhelming need of welfare assistance in 
Indian country.
    This root is the lack in Indian country of jobs, 
educational opportunities and skills training, and the 
availability of low transportation which all requires enough 
time to cultivate for rich and productive growth. Once we 
address the root of the problem, the act can help foster the 
benefit of our community that we all envision.
    I will talk later about the ideas I think are necessary for 
the legislation that can bring true welfare reform to Indian 
country. Right now, let me tell you about the impact the act 
has had on the Fort Apache Indian Reservation, the home of my 
people.
    As the chairman of White Mountain Apache Tribe, I know the 
needs of my reservation and my constituents. With this 
background, I can confidently tell you that PRWORA has failed 
to adequately address the needs of the White Mountain Apache 
people and Indian country in general. After the act became law, 
we looked at it and decided we wanted to take advantage of the 
opportunity it offered us to develop our own service plan and 
to operate welfare assistance as a tribal program. We were one 
of the first nations to take a bold step of developing our own 
service plan and operating our own program. It has been good to 
see the benefits that it has brought to our communities and 
people.
    However, along the way we also learned the restriction of 
the act such as 5-year limits for assistance which could 
seriously hurt our people. Although the act helps fund skills 
and educational training for work preparation, these people 
soon realize that while they are well trained, they still 
cannot find jobs because of economic depression on Indian 
reservations.
    Recent revisions of the Act exempt Indian nations with more 
than 50 percent unemployment which is what helps continue to 
meet the needs of our community but seems to penalize those 
nations who succeed in lowering their unemployment rates below 
50 percent, only to have their peoples' welfare assistance cut 
for progress they have made. More changes are needed if we are 
to see true welfare reform in Indian country and on Fort Apache 
Indian Reservation.
    Unemployment statistics from the most recent census shows 
that White Mountain Apache Tribe and Indian people in general 
are twice likely to live in poverty than the non-Indian 
population and twice as likely to be without employment.
    My people go without food, electricity, employment and 
shelter. This is not their fault. It is the lack of jobs and 
inadequate Federal and local funding assistance required for 
the area with close to 60-percent unemployment and average 
income far below the Federal poverty level.
    Today's needs are even more apparent. While the White 
Mountain Apache Tribe did take advantage of its ability to 
contract the operation of Temporary Assistance of Needy Family 
Program along with the Welfare to Work Program, the White 
Mountain Apache Tribe has experienced significant increase in 
its clients who request assistance for themselves and their 
families. Coupled with this increase, we have experienced a 
financial setback with the State of Arizona recently 
withdrawing its State moneys earmarked for the TANF program in 
Indian nations and applied them to the State budget deficit. 
Arizona's withdrawal of this funding yet again disadvantaged 
the ability of my people and Indian people throughout Arizona 
to realize economic self sufficiency and eventual freedom from 
Government assistance.
    By cutting funding, Arizona made disparities between our 
ability to provide services even more apparent. Although the 
act allows an Indian government the right to operate their own 
welfare assistance programs and to develop plans, policies, and 
procedures tailored to the unique needs of our communities and 
clients, it still fails to place us on a level playing field 
with our counterparts in the state of economic security.
    As an example, consider the expense of my government facing 
today in training and education of its Department of Social 
Service staff and clients on change, on its plan and operation, 
costs which could be absorbed through adequate start-up, 
technical assistance funding similar to Federal funding which 
greatly assists State governments and their welfare reform 
assistance capacity.
    Not only do we request increased funding for administrative 
and technical assistance, we also strongly encourage Federal 
finance assistance to our community in the form of tax 
initiatives, bond incentives, transportation grants, 
vocational-educational opportunity grants and community 
infrastructure development grants. There is no doubt that 
increased funding for the administration of welfare assistance 
is desperately needed but we need even greater infusion of 
financial assistance for development of small businesses, 
construction and industrial improvements so we can jump start 
our economy. We all know that small businesses oil the economic 
engine that powers a thriving community. We want to give our 
people the chance to operate their own business and realize a 
profit.
    As you can see my overall request is that you promulgate 
welfare reform legislation tailored for Indian country, that 
provides realistic opportunity for our people and our 
government to meet the extreme needs of our communities which 
are generated from high unemployment rates and the lack of 
industry and educational opportunities.
    Adequate Federal funding targeted toward the area I just 
mentioned will help not only the White Mountain Apache Tribe 
but all Native nations across Indian country in creating real 
economic opportunity for their members. Only when we see real 
economic opportunity and considerable increase in jobs, 
training, business opportunities in our communities will we 
even begin to speak of realistic welfare reform in Indian 
country.
    Mr. Chairman, from the elders of the White Mountain Apache 
Tribe, I express our deep appreciation and gratitude for your 
efforts to bring help in their struggle for economic self 
sufficiency. I encourage you to seek even more advice and 
recommendations from Indian nations across the country and 
various State and local advocacy groups for Indian people 
before finalizing and passing American Indian welfare reform.
    Our decisions today will impact future generations, so let 
us give them respect by making sure the decisions we make are 
well thought, well informed, adequate for their needs when they 
realize them in their future.
    [Prepared statement of Mr. Massey appears in appendix.]
    The Chairman. Thank you very much, Mr. Chairman.
    Now may I call upon Chairman Windy Boy? Welcome, sir.

 STATEMENT OF ALVIN WINDY BOY, CHAIRMAN, CHIPPEWA CREE TRIBE, 
                     ROCKY BOY RESERVATION

    Mr. Windy Boy. Greetings, Senator.
    My name is Alvin Windy Boy and I want to acknowledge 
Senator Baucus and his presentation this morning, our Senator 
from the great State of Montana.
    I applaud my Senator for the commitment that he is creating 
with Indian country, particularly in Montana in regard to the 
issue we are discussing here.
    My name is Alvin Windy Boy, Sr., Chairman of the Chippewa 
Cree Tribe of Rocky Boy's. I am presenting my testimony today 
on behalf of my own tribe and several other Montana tribes, 
namely the Blackfeet Tribe, the Assiniboine and Gros Ventre 
Tribes of Fort Belknap Reservation, the Northern Cheyenne Tribe 
and the Assiniboine and Sioux Tribes of the Fort Peck 
Reservation. I want to thank you for this opportunity to 
present comments on welfare reform in Indian country.
    I would like to commend the chairman and the vice chairman 
and the members of the Indian Affairs Committee for conducting 
this hearing on the implementation and reauthorization of the 
Personal Responsibility and Work Opportunity Reconciliation Act 
of 1996, generally referred to as the Welfare Reform Act.
    I again want to commend our Senator, Max Baucus, for 
listening to the views of tribal governments and for 
introducing S. 2484, the American Indian Welfare Reform Act of 
2002.
    As a side note, in Indian country, particularly in my area, 
we encourage our young children from infancy to that first 
period of adulthood. As parents, as this little child begins 
that step toward walking, the first step in life, we offer that 
baby encouragement. When we see the baby fall, we help and 
encourage him. That is how I look at the 1996 bill. Now we are 
coming into a different era after 5 years of passage of that.
    My testimony will offer commentary on both welfare reform 
in general and S. 2484. It is important for this committee to 
receive the perspectives of tribal governments that have been 
successful in operating tribal temporary assistance to needy 
families programs as well as those still under State TANF 
plans.
    As Congress deliberates on legislation to reauthorize the 
Welfare Reform Act, it is important that you be vigilant in 
keeping foremost in your minds those American Indian children, 
women, and families that have endured and continue to survive 
on truly minimal means. Our tribal governments are trying to 
pick up the pieces and help in the daily struggles of what are, 
in reality, the most impoverished people in this country, 
members of federally-recognized Indian tribes.
    You will hear today from representatives of tribes 
operating their own TANF programs and I am here to provide the 
perspective of the non-TANF tribes, those tribes that for a 
number of reasons cannot or have not chosen to operate tribal 
TANF programs. Of the issues relative to tribal participation 
in welfare reform, although there are other related areas of 
discussion, we have chosen the areas of governance, program 
delivery and service, data control and the impact as primary.
    Existing methods have been tested and proven to only widen 
the gap between tribal-State relations and hinder the process 
of American Indians and families becoming self sufficient with 
meaningful and productive lives. Without the solid foundation 
of data, evaluation and research, long term change within the 
welfare system will be minimal at best.
    The governance aspect, welfare reform with its mandate for 
decisionmaking at the local level has fundamentally altered the 
manner by which governmental entities and affected individuals 
relate to one another. Montana's Indian tribes still need to 
see a level playing field relative to decision making. Due to 
the nature of the Federal block grants within the Federal, 
State, and local government systems, and the fundamental 
efforts to establish local control, the present system deters 
from the policy of government to government relationship 
between tribes and States and tribes and the Federal 
Government. Consequently, the decisionmaking authority of 
tribal governments is undermined.
    Because there is no set protocol for policy setting between 
the Montana DPHHS, county offices and tribal governments, the 
bulk of policy decision and funding discretions remain with 
DPHHS and county offices and we have little input as tribes.
    In addition, the design and nature of the Federal block 
grant system has limited consultation between tribal and State 
governments on State TANF plans. The Montana State Plan has 
given county offices primary control, thus creating an uneven 
tripartite relationship between State, tribal, and county 
governments.
    It is the concern of the five non-tribal TANF tribes in 
Montana that tribal governments should not have to be under the 
thumb of county governments. Consultation involving tribes 
should remain at the highest level of State and Federal 
Government.
    I want to offer some comments on the legislation introduced 
by Senator Baucus, the American Indian Welfare Reform Act of 
2002, S. 2484. These comments were adopted at a recent meeting 
of the Chippewa Cree Tribe, the Blackfeet Tribe and the 
Assiniboine and Gros Ventre Tribes for Fort Belknap, Northern 
Cheyenne and the Assiniboine and Sioux Tribes of Fort Peck. 
These tribes met last week in Great Falls, MT to go over the 
draft concepts of the Baucus bill and I have been asked to 
relay the following comments.
    First and foremost, we strongly support the Baucus bill and 
hope that Congress will enact it as soon as possible and fully 
fund the costs associated with its implementation.
    If the levels of funding and assistance proposed in S. 2484 
had been included in PRWORA in 1996 and there is little 
question many tribes would have chosen to operate tribal TANF. 
As it stands today, only 37 plans representing 137 tribes have 
chosen tribal TANF. Within the State of Montana, there are 7 
fully recognized tribes, Salish and Kootenai and Fort Belknap 
who operate tribal TANF.
    The five Montana tribes that met last week hope that any 
legislation enacted can include the application of ``Rural/
Frontier Status'' designations for tribes operating TANF 
programs in the same manner as those designations are presently 
awarded to States with high unemployment, limited accessibility 
to services, and that are geographically isolated. Those States 
get supplemental funds and tribes should be eligible for 
similar supplemental funding.
    We strongly support the components of the tribal TANF 
Improvement Fund in the Baucus bill. These provisions recognize 
the fundamental weaknesses of the 1996 Welfare Reform Act and 
its treatment of Indian tribes and take positive steps to 
rectify those flaws.
    We greatly appreciate some of the changes that Senator 
Baucus has made to the previous draft which reflect comments we 
submitted to his office.
    The inclusion of the language indicating that tribes 
applying to operate a TANF program be given a priority and that 
tribes of all sizes receive funding and to maximize the number 
of tribes which receive funding are good provisions. We are 
also pleased to see recognition and acknowledgement that the 
1994 figures compiled by States are not likely to be reflective 
of the true costs facing a tribe operating a TANF program. The 
$140 million allocated for tribes that can demonstrate a higher 
caseload than originally estimated is a very positive position.
    Under the equitable access provision, we think Senator 
Baucus is on the right track relative to encouraging State/
tribal cooperation and think it is a good idea to involve HHS 
in this but we think there should be a provision to require 
tribal concurrence in the State specific information on 
demographics and caseload characteristics of Indians served by 
State TANF programs.
    Finally, again, we want to thank Senator Baucus for 
including tribal colleges and governments and ensuring they 
have priority for accessing the research dollars in the bill.
    In closing, it is the consensus of the Montana tribes to 
support and endorse the proposed ``American Indian Welfare 
Reform Act of 2002.'' Tribes must be afforded the opportunity 
to operate tribal TANF and provide for our own people. This 
legislation provides incentive and opportunity to do this.
    Montana tribal governments are committed to strengthening 
tribal families, protecting the interests of tribal children 
and developing economically prosperous and culturally thriving 
community.
    In closing, a lot of families that fall through the cracks 
ultimately end up in my office for basic needs, basic 
necessities. Some of us may think that acquiring pampers is not 
a big deal but to that woman and child, it is a big deal. The 
list goes on. If they are not able to receive assistance by 
some program, ultimately they end up on my door or my 
colleagues.
    With that, I thank you.
    [Prepared statement of Mr. Windy Boy appears in appendix.]
    The Chairman. Thank you very much, Mr. Chairman.
    Ms. Plummer, would you care to add anything?
    Ms. Plummer. No.
    The Chairman. I will now call upon tribal secretary, Mike 
Peters.

    STATEMENT OF MICHAEL PETERS, TRIBAL SECRETARY, SISSETON 
                      WAHPETON SIOUX TRIBE

    Mr. Peters. Good morning.
    We do have a prepared statement and I will read part of the 
first page. I will then skip to the third page which has four 
paragraphs I want to read.
    The Chairman. I can assure you that your full statements 
are all going to be in the record.
    Mr. Peters. I bring you greetings from the Sisseton 
Wahpeton Sioux Tribal Council. My name is Michael Peters, the 
elected tribal secretary of the Sisseton Wahpeton Sioux Tribe. 
I thank you for the opportunity to present testimony on the 
tribal concerns regarding the reauthorization of the Federal 
welfare reform law, Personal Responsibility and Work 
Opportunity Reconciliation Act.
    We need to continue direct funding for our tribal 
employment programs. We do not receive funding from the State 
of South Dakota for these services and we do not receive 
sufficient tribal TANF funds to be able to provide the services 
necessary to move our people from welfare to work. Any 
reauthorization of the welfare reform law must provide for the 
direct funding of tribal employment services.
    We need support for tribal employment services at an 
adequate level. We support a tribal employment services program 
that includes the funding we receive from the Native Employment 
Works and the Welfare to Work Program and an increase necessary 
for us to serve clients with more barriers to employment.
    The tribe, under its Child Support Enforcement Program, can 
now make non-custodial parents accountable to support their 
children. However, many need basic education and skills 
training which will enable them to find and retain employment 
so they can provide the needed support. Simply continuing the 
NEW program for another five years at its fiscal year 1994 
funding level will not give the tribes the capacity to provide 
services to non-custodial parents.
    We need the ability to integrate all the necessary services 
into a single program that makes sense to the tribe and works 
effectively at the reservation level. The tribe has tried to do 
this under Public Law 102-477. The integrated approach is 
essential to the tribe's continued success with welfare reform. 
Program integration is a goal of the President's welfare reform 
proposal. However, we and other 477 tribes have been hamstrung 
by objections raised by HHS staff to integrate TANF and NEW 
with our other programs under a single plan, single budget and 
single report. The welfare reauthorization law must include 
strong language that HHS must respect our ability to use 477 as 
a tribal tool for program integration.
    We need a requirement in the law that HHS and all other 
Federal agencies involved must consult with the tribal 
governments on regulations and policies governing the various 
Federal programs. The tribes cannot afford to have plans 
undermined by Federal rules adopted without our input which 
makes our job impossible.
    Part of that goes back to this past year and some of the 
problems we have had with HHS. As one of the first tribes to 
adopt 477, we came here to Washington to have continued 
meetings with HHS and they didn't show up, much like today. It 
really puts a burden on the tribes. A lot of the tribes don't 
have the funds to keep traveling to Washington, DC to meet with 
Federal programs that don't show up. All the tribes have spent 
thousands of dollars, probably tens of thousands, coming here 
for no shows on HHS's part. That is why I was disappointed 
today with their lack of participation.
    Finally, our tribe has preliminary reviewed Senator Baucus 
new bill and we like what we see. We think it moves in the 
right direction of many of our recommendations. We thank 
Senator Baucus and encourage this committee to consider his 
proposal carefully.
    There is more to the statement and you have it on record 
but I just wanted to make a few comments before my time is up 
on a more personal level. Like the chairman, I also see a lot 
of our tribal membership come through my office for pampers, 
for a tank of gas or just basic necessities that we don't look 
at twice.
    Richard Kebel, our TANF program manager, has an office 
right across the hall. He has nine of our tribal members 
working for him under 477. That is more like a one stop for a 
tribal member. Where before they were hitting the different 
places to go to these different services, now we have it all in 
one place, so it makes it better for them.
    As tribal leadership, we see what our tribal members have 
to live with every day and I can't totally blame our tribal 
membership for the way it is. I always think the modern day 
culture is still new to them, they are still trying to learn 
how to be--I don't know if you want to call it American or 
civilized. They are still learning how to work, how to be 
productive. IF they come from a generation of I don't know if 
you would call it non-workers or genocide or what we want to 
call it, but I don't totally blame our tribal membership for 
the way they are. They are still getting used to how to work 
and how to be Americans I guess you can call it. It is still 
foreign to a lot of them. A lot of them still don't understand 
a lot of English, or the American way of how we have to do 
things and how the American people want us to be. They don't 
know how to do that yet.
    By doing this, by training them to work, by giving them the 
opportunity to do this, we are going to better integrate them 
into the tribal system and the American system.
    I appreciate and the tribes appreciates this time to speak 
to you directly. I thank Senator Johnson for his comments.
    [Prepared statement of Mr. Peters appears in appendix.]
    The Chairman. Thank you very much, Mr. Secretary.
    Now, may I call upon Ms. Wall-McDonald?

 STATEMENT OF TERESA WALL-McDONALD, SALISH AND KOOTENAI TRIBES

    Ms. Wall-McDonald. I am Teresa Wall-McDonald. I am enrolled 
tribal member of the Salish and Kootenai Tribe in Montana. I am 
the director of the tribe's Department of Human Resources which 
included TANF and many of the support services that are 
critical to family success.
    This morning I thought my casual, outdoorsey, Montana look 
might give the Salish and Kootenai testimony an edge over other 
presenters, so you will have to tell me if it works. In 
reality, my suitcase was lost and I apologize for my informal 
appearance.
    The Chairman. You look very beautiful.
    Ms. Wall-McDonald. My friends at Rocky Boy thought I should 
sit up here and say, this is what 41 percent unemployment looks 
like. [Laughter.]
    It is a difficult thing to prepare 14 pages of written 
testimony and then be given roughly 5 minutes because TANF is 
such an important issue to Indian country. I cannot think of a 
more important piece of legislation, nor a more important 
program.
    Today, I am representing over 1,800 adults and children who 
have received services from our TANF program. We began the 
program with 180 cases and 600 individuals and now have served 
578 cases and 1,800 individuals.
    The challenge is that tribal caseloads have grown. We meet 
the same work standards as the State and we have fewer 
resources. This is grossly unfair. We do the same amount of 
work and sometimes more with less money.
    The second challenge is what do we do after families have 
worked hard, obtained a GED, enhanced their skills and there 
are no jobs? Indian people are not lazy. Our unemployment rate 
at Salish and Kootenai is 41 percent. I read the USA newspaper 
today and it reported a 6-percent unemployment rate, the 
highest since 1994. I thought here we are in Montana and we 
have unemployment rates from 41 percent to 77 percent. The 
greatest disappointment in Indian country is working hard 
having a family that makes positive changes and there are 
simply no jobs.
    We have done a pretty good job with bundling occupations 
and leveraging employer support. Out of the 578 cases, 298 have 
closed and found employment. That is pretty good. The majority 
of these jobs have required some sort of employer incentive.
    If I was the State of Montana program, I would qualify for 
a performance bonus when somebody goes to work but under the 
present regulations, the tribes don't qualify for those types 
of incentives.
    When we consider what is most critical to the welfare 
reform success it is as follows. You must equalize the funding 
streams, allow tribes access to every source of funding the 
State is eligible for, allow the tribes to manage and 
administer food stamps and medicaid. Families who are 
struggling need those support services, so tribes should be 
able to administer those services in a tribal facility.
    Consider waiving the match for high poverty, high 
unemployment areas for food stamps and medicaid. Make a serious 
substantial and immediate financial contribution to economic 
development now. If there are no jobs in Indian country, 
welfare reform will fail and the families will fail.
    Increase the tribal setaside for child care. You can't work 
if there is no day care available. We would also like to see 
you remove the restrictions on TANF and new funds carryover to 
allow for any TANF-related activity. For those tribes that are 
working hard, doing well and have TANF carry over, those could 
become a source for economic development.
    We would also like you to increase the access and funding 
for employment and training funds and bring back the 
competitive welfare to work grants.
    We have analyzed and looked at the bill offered by Senator 
Baucus. We favor many of the initiatives. It provides solutions 
and it is forward thinking and takes a positive step for 
welfare reform in Indian country.
    Again, we would like to thank you, Mr. Chairman, for 
allowing us to testify and again, I apologize for my 
informality.
    [Prepared statement of Ms. Wall-McDonald appears in 
appendix.]
    The Chairman. Thank you very much, Ms. Wall-McDonald.
    If I may now ask a few questions. Chairman Massey, you 
indicated the State of Arizona withdrew your TANF funds?
    Mr. Massey. Yes.
    The Chairman. Did they also withdraw TANF funds from non-
Indians?
    Ms. Narcho. Mr. Chairman, I am Colleen Narcho, executive 
director for the Department of Social Services which includes 
the tribal TANF for white, non-Apache.
    The State had appropriated $1 million of TANF moneys to the 
19 tribes of Arizona. However, after offering it for 3 years, 
they are not going to do that anymore because the moneys are 
going to be set into the deficit. These were moneys the tribes 
could use as incentives for like welfare to work programs.
    The Chairman. Has Arizona stopped welfare programs in the 
State?
    Ms. Narcho. No; they have not. They stopped the funding 
that was allocated for Indian tribes. They are not going to do 
that anymore.
    The Chairman. Mr. Peters, you have had some no shows by the 
Government?
    Mr. Peters. Yes.
    The Chairman. How many? One is enough but how many?
    Mr. Peters. There have been at least three and today, I was 
told they would be here to listen to the testimony, so I have 
to say four. They did have one show.
    The Chairman. Would you send me an official letter 
indicating the times and dates?
    Mr. Peters. Yes; we can. After one of the no-shows, some of 
the tribes did get together and put together a format letter 
and we will send that to you.
    The Chairman. I do not want a form letter, I want an 
official letter.
    Mr. Peters. Okay. We will send an official letter from the 
tribes.
    The Chairman. It just happens by coincidence that I am the 
senior member of the Appropriations Committee on Health and 
Human Services, so I think they will listen to me.
    It appears that in every case here, you may have training 
programs but no jobs. The States control the funds. I have 
looked over the Baucus bill and like all measures, it may not 
be perfect, but I think it comes closest to addressing many of 
the problems set forth in your testimony.
    I would suggest that all of you send letters of 
encouragement and support to the committee and you can send 
your letters to Chairman Max Baucus, Senate Finance Committee, 
Washington, DC 20510. Instead of sending one resolution by the 
tribal council, send 100 letters. Instead of the NCAI sending 
just an NCAI resolution, have every member send a letter 
because one way constituents indicate interest is by 
communications.
    I would suggest that you begin a writing program. Your 
letters do not have to be fancy, and the title of the bill is, 
``American Indian Welfare Reform Act,'' S. 2484 and send your 
letters to Senator Max Baucus, chairman, Finance Committee, 
U.S. Senate, Washington, DC 20510. He will be very pleased to 
receive these letters.
    Incidentally, to show you the problems we have, even 
assuming the Baucus bill passes unchanged, the amount involved 
is at least $635 million. It has to go through the Finance 
Committee. I do not serve on that committee but I will do my 
best. As you know, these are difficult times for securing 
additional resources but I think this should be a high 
priority.
    With that, I would like to thank all of you for 
participating and I am going to go back to Rocky Boy one day 
soon.
    Thank you very much, all of you.
    May I now call upon the director of Welfare Reform Program, 
National Congress of American Indians, Sarah Hicks; the 
director of the Michigan Family Independence Agency and 
president of the American Public Human Services Association, 
Doug Howard; the executive director of the Torres Martinez 
Tribe TANF of Thermal, CA, Virginia Hill, accompanied by 
Apesahnakwat; and the president of the National Indian Child 
Care Association, Confederated Tribes of Warm Spring, Julie 
Quaid; and representing the National Indian Child Welfare 
Association of Portland, Terry Cross.
    May I now call on Director Hicks.

  STATEMENT OF SARAH HICKS, DIRECTOR, WELFARE REFORM PROGRAM, 
             NATIONAL CONGRESS OF AMERICAN INDIANS

    Ms. Hicks. Good morning.
    I would like to thank you for inviting NCAI to testify on 
the implementation and reauthorization of the Welfare Reform 
law and commend Senator Baucus for the introduction of S. 2484.
    My name is Sarah Hicks and I serve as director of the 
Welfare Reform Program at NCAI. Over the past 5 years, I have 
had the remarkable opportunity to work with tribes throughout 
the country on the implementation of State and tribal TANF 
programs and a host of related programs.
    For over 3 years now, NCAI has facilitated a work-group of 
TANF tribes and coordinated a peer learning process that was 
mentioned earlier. For the past 2 years, tribes have been 
spending considerable time and energy on discussions focused on 
the reauthorization of this important law.
    Through our partnership with the American Public Human 
Services Association, APHSA, NCAI, and TANF tribes have made 
considerable headway in finding common ground between States 
and tribes on many reauthorization issues. This morning I am 
here to share with you three brief themes that I have gathered 
in my work from the 36 tribal TANF programs, the many tribes 
still served by State programs and a variety of State TANF 
programs.
    First, tribes support welfare reform efforts. The concept 
of welfare reform resonates with American Indian Alaska Native 
tribes. Tribes are in favor of individual responsibility and 
work coupled with appropriate community supports. Proponents of 
addressing issues comprehensively with a whole systems approach 
and looking holistically at family needs, tribes show a strong 
preference for the flexibility to facilitate locally designed 
and administered programs that fit the unique needs of their 
communities.
    In many ways, the welfare reform law provides tribes with a 
good blueprint for change but as evidenced by high poverty 
rates and below average work participation rates, we would have 
to say there is not enough change in Indian country.
    This leads me to my second point. The key to meaningful 
reform in tribal communities is flexibility for States and 
tribes. Too often welfare reform is thought of as encompassing 
only TANF and too often tribal options around welfare reform 
implementation are seen by both tribes and States as either a 
tribe receiving Federal funds for the administration of TANF or 
the tribe continuing to receive TANF benefits and services from 
the State.
    In actuality, there are a whole range of options between 
the decision to TANF or not to TANF. The flexibility will be 
critical to the potential of many States with large Indian 
populations to meet the proposed increased work requirements 
and work participation rates. Tribal TANF programs also need to 
maintain the flexibility that we have, the flexibility to 
define our service area, service population and work 
activities, as well as to negotiate work requirements and work 
participation rates.
    As you may be aware, tribes in Alaska face a unique 
limitation in their flexibility of TANF. The current law gives 
authority to administer TANF to the 12 Alaska Native Regional 
Non-profit Corporations instead of directly funding the 
federally recognized tribes in Alaska.
    This has a dramatic impact on tribal governments because 
Alaska's 227 tribes make up about 40 percent of all tribes in 
the United States. Additionally, a second provision requires 
tribal TANF programs in Alaska to be comparable to State 
operated TANF programs. These provisions hinder self 
determination and the ability of tribes in Alaska to make 
tribal specific program decisions. The comparability 
requirement in particular flies in the face of the concept of 
block grants as well as tribal sovereignty.
    My third point is that the notion of welfare reform is 
really much broader than TANF. TANF is just a flexible funding 
stream. In fact, we should think about welfare reform in Indian 
country as having four components: Financial assistance 
programs for poor and fragile families, including TANF, child 
support and foster care; related support services that enable 
recipients to get and keep a job such as child care, 
transportation, mental health care, substance abuse treatment, 
and other needed support systems; third, job training programs 
to build skills for work, qualifying recipients for available 
jobs; and fourth, tribal economic development to provide 
recipients jobs at which they can earn a living wage and become 
self sufficient.
    The importance of economic development, as mentioned 
earlier, to the success of welfare reform implementation cannot 
be overstated. Without jobs, welfare reform will fail. A two-
pronged approach is necessary. First, tribes need more 
flexibility in using their existing resources. Legislation like 
S. 3443, the Indian Tribal Development Consolidated Funding 
Act, is one such tool.
    Second, tribes need additional resources, both for economic 
infrastructure, transportation systems and technical assistance 
for concrete activities to create a more business friendly 
environment on reservations, and job creation through the 
expansion of tribal authority to issue private activity bonds 
for reservation-based economic activity.
    In closing, there is no doubt that tribal TANF programs 
have been successful in creatively addressing the many 
challenges they face. However, to really bring the benefits of 
welfare reform to Indian country, reauthorization must address 
four primary issues.
    First, building tribal TANF infrastructure by providing 
resources for tribal TANF startup, management information 
systems, and staff training.
    Second, assessing sufficient ongoing TANF administration 
resources either through providing incentives to States for 
adequate State contributions to tribal TANF programs or through 
making a Federal commitment for full funding of tribal TANF 
programs.
    Third, establishing equity for tribal TANF through access 
to the same resources State programs enjoy such as the high 
performance bonus, the contingency funds, technical assistance 
and research dollars.
    Fourth, economic development in Indian country with 
increased flexibility to use existing resources and increased 
resources for development infrastructure and job creation.
    Thank you very much.
    [Prepared statement of Ms. Hicks appears in appendix.]
    The Chairman. Thank you very much, Ms. Hicks.
    May I call upon Director Howard.

      STATEMENT OF DOUG HOWARD, DIRECTOR, MICHIGAN FAMILY 
   INDEPENDENCE AGENCY AND PRESIDENT, AMERICAN PUBLIC HUMAN 
                      SERVICES ASSOCIATION

    Mr. Howard. Thank you, Mr. Chairman. I want to thank you 
and the members of the committee for the opportunity to testify 
today here on behalf American Public Human Services Association 
on this very important issue.
    Similar to the way the broader TANF program has been 
implemented, tribal TANF has also been implemented in a variety 
of ways throughout the country with really no one model of 
State/tribal interaction or coordination. Although over 170 
tribes and consortiums have taken on the administration in 15 
States, there really aren't many additional State contacts and 
contracts with individual tribes which either provide the 
opportunity or directly provide services to Native Americans 
through their State or county TANF program.
    I would like to highlight today in my brief comments the 
opportunity we think TANF has created for States and tribes to 
come together and reevaluate the delivery of services in Indian 
country. For our Association of State Human Service 
Commissioners and TANF Directors, the dialog and discussions we 
have been having with NCAI over the last year have really 
helped open the door for a broader and new working relationship 
between our members and NCAI. Quite frankly, it has been very 
educational for my colleagues and I. I think we really do see 
great opportunities to build successes for each other out of 
this.
    In December, APHSA, and NCAI came together for 1 day long 
meeting to identify some of the issues around TANF 
reauthorization. Since then we have formed a joint work group 
and had several in-depth conference calls and discussions on 
TANF legislative proposals. In general, I think it is important 
to highlight that when State and tribal TANF administrators 
come together, we have found may not walking in knowing if we 
would, but walking out finding we really had very similar 
concerns around what was needed for success. If I could boil 
those down into two key themes, and I think you have heard 
those today, those would be flexibility and adequate funding.
    We also agree there may be some additional issues that face 
tribal TANF programs. It may be unique to tribal TANF that 
maybe States have not directly faced before.
    On the issue of the Federal commitment, we generally agree 
I think that there really is a need for greater Federal 
Government support to support the tribes in administering 
successful TANF programs. Most tribes starting their TANF 
programs really have little or no established infrastructure 
and don't have that Federal support to create it.
    You have heard that today and I know even in my own State, 
we have 12 federally recognized tribes and 4 historic State 
tribes. Based on our discussions with them, we think there are 
probably only two that would say they actually have what they 
believe would be an adequate information management system plus 
staffing. Quite frankly, one of those is making subsidy 
payments to members of the tribes in such a way that they 
probably have a very small TANF population. That really limits 
the opportunities for the other tribes to do that.
    Capacity grants, technical assistance and State MOE dollars 
have been evolved in work between States and tribes. It is not 
consistent around the country. I think if you talked to all of 
us you would hear that in some States the relationship is very 
strong and in other cases, you would hear there is clearly room 
for improvement. These arrangements exist on a State by State 
basis.
    Short of the opportunity to get full funding, which I know 
is a challenge, there really are some things we can focus on. 
Some I just mentioned. One would be specific grants around the 
capacity building to build that infrastructure. The second 
would be around the technical assistance to help get the 
knowledge and best practices in place; and third, a theme you 
have heard today around economic development.
    A second opportunity is to try and create an adjustment in 
the tribal TANF Grants Program to recognize any growth in size 
or requirements for additional resources.
    Finally, and I think it has been suggested, Federal 
incentives back to the States to ensure the States are 
contributing and supporting the tribal efforts in the TANF 
program and in other employment-related programs would be 
advantageous.
    Another area that NCAI and APHSA came to agreement on was 
that the Federal Government has not always been able to support 
an environment that fosters a collaborative relationship. We 
think there really can be a better relationship among all three 
levels of government and are committed to work on that.
    We would also encourage mutual consultation and development 
of State and tribal TANF plans. I think this tends to go on in 
most States but on the State side, to ensure we are not making 
duplicate plans when tribe may be making plans for a new tribal 
TANF program would avoid duplication of effort. I would hope 
that States would be in a position to contribute to their 
planning.
    Another area of agreement between NCAI and APHSA is the 
high joblessness issue and the need for economic development. 
You have heard a lot of statistics on the unemployment rates 
today, so I won't bother repeating them, but I think the 
numbers speak for themselves. It is clearly a challenge in both 
their ability to meet Federal work participation requirements, 
thinking about time limits and the kinds of triggers and 
exemptions you might think about around those time limits and 
work participation rates.
    The final subject matter I want to touch on, while slightly 
outside the scope of TANF, I feel it is important because it 
gets back to strengthening families. I think the tribes, States 
and everyone else would speak that whether you are doing work 
in the Indian nation, doing work in a local government or State 
government, this really needs to be about strengthening 
families.
    This subject area is the area of title IV-E funding. one of 
the things we have worked with a lot in Michigan is child 
welfare services with tribes. We have some great success 
stories but we think there are some opportunities to directly 
flow some funding to the tribes and they could perhaps 
integrate some of their tribal TANF and child welfare services.
    In closing, I would like emphasize that APHSA believes this 
reauthorization is just a first step between tribes and the 
States in a long relationship of working so that Native 
American communities can experience the kind of success they 
deserve. I hope that cooperation and collaboration can continue 
to be the theme we have.
    Thank you for the opportunity to testify and I look forward 
to any questions you might have.
    [Prepared statement of Mr. Howard appears in appendix.]
    The Chairman. Thank you very much, Mr. Howard.
    Now may I recognize Director Hill.

STATEMENT OF VIRGINIA HILL, EXECUTIVE DIRECTOR, TORRES MARTINEZ 
  TRIBAL TANF, ACCOMPANIED BY APESAHNAKWAT, PUBLIC RELATIONS, 
                        TRIBAL TANF, CA

    Ms. Hill. Good morning.
    My name is Virginia Hill. I am executive director of the 
Torres Martinez Tribal TANF Program located in Southern 
California near the Salton Sea. We serve nine tribes in 
Riverside County and we are the first tribe to serve a major 
urban Indian population in Los Angeles County for a total of 
5,358 families.
    Today, I am representing the three tribal consortiums in 
California--Torres Martinez, the Southern California Tribal 
Chairmen Association, comprised of 17 tribes in San Diego 
County and one tribe in Santa Barbara, the Bishop Consortium of 
three tribes and the Washoe Tribe of Nevada and California for 
a total of 32 tribes.
    We provide the following unique services of the four areas 
of tribal TANF. First, cash assistance. We have an EBT system 
that we have developed and are currently working out the kinks. 
We require substance abuse testing and sanctions for 
nonparticipation but using a voucher system which makes sure 
the children are not left out. We have a clothing allowance for 
school aged children on TANF. We provide training and education 
and have computer labs at the eight sites to teach basic 
computer skills. We have long distance learning and tele-
conferencing and are promoting small business and 
entrepreneurship with our recipients. We propose to serve the 
non-custodial parents with training and education.
    As far as teen pregnancy prevention, we have a baby think 
it over program, we have pregnancy aprons at both the male 
youth and the females have to wear. We have a cash for good 
grades incentive to keep the kids in school, $50 for every 
semester for a C average, B average is $75 and $100 for A. We 
are also able to track the students if they are falling below 
to help them with tutoring.
    We are having our ninth annual Indian Child Welfare 
Conference next week and we have our teen youths from Los 
Angeles area that are going to put on a skit called ``Teen 
Discovery Dating.'' We have a marriage promotion officer who is 
doing research into customs and traditions with the elders of 
the Cahuilla Tribe and are also looking to change the county 
language to allow tribal definition of marriages. Our program 
is called Snagging for Life. So far, we have had two marriages, 
one near miss, a couples conference, and we are planning a 
singles dance at the end of this month.
    We promote traditional marriages by providing a maximum of 
$1,500 toward birdsingers traditional dress and traditional 
food if they are married in the traditional way and also a 
$2,000-marriage bonus but they can only use it one time.
    The Chairman. One time.
    Ms. Hill. We are anticipating starting fatherhood 
activities shortly.
    All these programs are possible because the State of 
California provides 100 percent matching funds.
    Three days ago, the California Tribal TANF programs met 
with the State Department of Social Services to brainstorm on 
incentives for all States to provide 100 percent match to all 
tribes if they chose to administer a TANF program. This concept 
is new and tribal organizations and States have not had a 
chance to review. Unofficially, the State of California 
supports this. Of course this has to come from the Governor.
    Currently, there are 36 approved tribal TANF programs and 
there and there are 36 pending programs. We believe the major 
reason more tribes do not assume TANF is because of lack of a 
State match. The State incentive program we are proposing is 
basically first maintaining Federal funding and offering States 
a credit that will offset any impact that may be imposed on a 
State for non-compliance with Federal regulations at a rate of 
$2 of credit for every dollar contributed to a tribal TANF 
program.
    Another area I would like to address is the food stamp and 
Medicaid problems. We are proposing direct funding for both 
programs in a one-stop shop. We have a resolution passed by 
NCAI in 1998 that supports this concept. Right now we are 
proposing a demonstration with the Department of Agriculture.
    Three years ago, we tried working with the Southern 
California Tribal Chairmen Association. We proposed a 
demonstration project and were turned down for three reasons. 
Basically, they thought we didn't have the infrastructure 
capability, we had a low caseload, only proposed 600 families 
to serve and it required a 25-percent match.
    There is recent and ongoing documentation verifying that 
Indians and their families are under-represented in both food 
stamp and medicaid programs. Tribal TANF participants must fill 
out one application at the tribal TANF site on the reservation, 
travel 50 to 100 miles to the nearest welfare office to fill 
out a similar application for food stamps and medicaid. We are 
talking about four additional questions for food stamps and six 
additional for medicaid.
    Exposure to non-traditional food has resulted in high 
diabetes in Indian communities and at present, most commodity 
programs on Indian reservations are successful because they are 
easily accessed by tribal people. There was a study done by 
Southern California Indian Center a few years ago that showed 
at the end of the month when the diabetes patients ran out of 
money, they were using food commodity and their sugar levels 
went up.
    When a program comes to an Indian reservation, the 
community takes full ownership and watches it closely. We know 
there are many considerations with the fraud of food stamps 
right now.
    Another area we would like to address is the waiver of all 
matching fund requirements for all welfare-related programs, 
including the Food Stamp Program which requires a 25-percent 
match, the Access Transportation Program which requires a 50-
percent match; the Foster Care Direct Fund which require a 25-
percent match; and the Child Support Enforcement which requires 
a 25-percent match. All are disincentive to tribes to take on 
these programs.
    I had the opportunity to look at the proposed Baucus bill 
and I address the first issue regarding $120 million set aside 
for tribes. I have some problems with that. First of all, this 
is $120 million of new moneys, the percentage with the State 
MOE support would be funded has not yet been defined, and it is 
a possibility that the tribes could be funded at 80 percent. In 
California, we receive 100 percent.
    The proposed language limits the number of tribes to apply. 
What happens when these funds run out? Since we are receiving 
100 percent, if we apply to the same amount because of the 
California deficit, we assume the State may say we need to go 
to the Feds to get our MOE share. If this is done, then 
California and Nevada tribes will take $40 million off the top, 
the Navajo Tribe would take $20 million which would leave $40 
million for distribution with the other tribes.
    The proposed language further limits the number of 
participating tribes because in order for new tribes to be able 
to access a portion of the proposed funding, lobbying will be 
required to increase the amount of appropriated funds. In 
addition, the proposed language did not address tribes needing 
to amend their plans to include new tribes or service area.
    If cutbacks occur across the board, all tribes will be 
penalized regardless of State MOE support capability.
    Also, would this be on a first come, first served basis? 
The State of California supports and backs our concerns, 
unofficially of course.
    Also, access, I would like to include where they require 
HHS to convene a new advisory committee on the status of non-
reservation Indians, I would like to include language that 
would include reservation-based Indians not being served by a 
tribal TANF program.
    Finally, I would like to invite you to the first annual 
Tribal TANF Best Practices Training that is going to be held in 
Los Angeles on May 24 and 25. At that conference, we will 
address the lack of a national forum for tribal welfare reform.
    Finally, I would like to leave you with this, the words of 
Tribal Chairwoman Mary Belardo, ``Tribal TANF is our people 
helping our people.''
    Thank you.
    [Prepared statement of Ms. Hill appears in appendix.]
    The Chairman. Thank you very much, Director Hill.
    Does Mr. Apesahnakwat wish to testify?
    Mr. Apesahnakwat. Thank you very much.
    I very much appreciate the opportunity to say a few words 
before the committee this morning.
    As you know, I have been the chairman of the Menominee 
Tribe for more than eight terms, spanning a 25-year period. I 
am Public Relations Director for the Torres Martinez TANF 
Project in Los Angeles. I still serve on the tribal council, 
however.
    I have to tell you that much of what you have heard here 
today is what I have heard all my life and I am sure you have 
longer than me as you have been in the Senate for 42 years. 
This is a sad refrain and continues to be. Since my employment 
with the Torres Martinez Project, I have come to understand and 
be able to focus that a lot of tribes, including my own, did 
not participate in the Tribal TANF Program because of the 
disparity and the hostility in States in which they reside.
    It is ironic that my Governor is now the director of the 
Secretary of the Department of Health and Human Services here 
in Washington and we can't even get to meet with him or the 
representatives interested in fixing the tribal TANF.
    As Director Hill indicated, we have proffered a formula 
solution for the matching funds of the MOE and the matching 
funds of States because in order for us to get a bill through 
we understand we have to placate States and give them an 
incentive large enough.
    Senator those penalties for noncompliance with 14 
regulations in the statutes accrue to over 43 percent of the 
total grant that States receive, 21 percent directly for work 
participation. That is an incredibly significant number. Our 
formula says for every dollar they contribute to tribes, there 
will be $2 on $1 offset on these penalties assessed to them.
    Moreover, if we are going to do that, I will give you an 
example. In South Dakota, they have indicated there was 80 
percent of TANF recipients who are Indians. If they allowed 
those tribes to go to Washington and get the financing to run a 
tribal TANF, that eliminates the State's concern for delivery 
and service to those people under the current administration 
and saves them that 80 percent.
    Under our formula, when they match that, that accrues to 
140 percent. My math may be a little bit off, but 130 to 140 
percent, these are credits they receive so that any of these 
hard to reach, hard to service areas such as reservations are, 
they will not be penalized or their grants will not be 
penalized, so this formula doesn't require new money. Yet it 
tweaks the already existing program to require our motivate 
States with an incentive to service tribes with tribal TANF 
because it is we, as you said at the beginning of this hearing. 
We may have the solution for Indian country because we work and 
live there, we grow there, we are tribal leaders who struggled 
with this dilemma for all our time.
    We would ask this committee to review this proposal we have 
put forward and we have had much success. As you know, there is 
a House companion bill offered by Congressman Herger from 
California. We have been taking this formula around to the 
House and Senate side in the hopes of familiarizing our 
Senators and Representatives in support of this formula.
    We think a lot of the tribes and a lot of the organizations 
who testified here today, we have talked to them but they had 
already written their testimony and submitted it. We would ask 
to give this formula a very close look because we like Senator 
Baucus' bill and we think if we supplant the new money and let 
580 Federally recognized tribes fight over that $100,000, this 
is a much better alternative that works with already existing 
money, gives the States the incentive and motivation to 
cooperate and work along with tribes so that the objective of 
this legislation was to provide assistance to all Americans for 
welfare to work and this would make this initiative work.
    I thank you for this time to be able to impart some of my 
concerns on this formula.
    The Chairman. Thank you very much, sir.
    President Quaid.

STATEMENT OF JULIE QUAID, PRESIDENT, NATIONAL INDIAN CHILD CARE 
        ASSOCIATION, CONFEDERATED TRIBES OF WARM SPRINGS

    Ms. Quaid. Good morning.
    My name is Julie Quaid and I am a member of the 
Confederated Tribes of Warm Springs, Warm Springs, OR. I have 
worked for my tribe for 22 years in the area of early childhood 
education and child care. My background is in education.
    I am also the chairperson of the National Indian Child Care 
Association. The Association is the representative body of 
tribal grantees of the Child Care and Development Block Grant; 
262 grantees representing more than 500 tribes and Native 
organizations received Child Care and Development Block Grant 
funds in 2002.
    I would like to thank you for the opportunity to join you 
today to share comments from the National Indian Child Care 
Association about the importance of quality child care in 
Indian country. We appreciate your commitment to ensuring that 
the needs of our tribal children and families are not 
overlooked during the reauthorization of welfare reform 
legislation and the Child Care Development Block Grant Act.
    The U.S. Government affirmed its trust responsibility 
toward American Indians and Native Alaskans and Hawaiians 
through direct funding of the Child Care and Development Block 
Grant to tribal governments supporting tribal sovereignty and 
local control of programs for tribal and native citizens.
    Tribes must continue to administer these programs to meet 
the unique needs of tribal communities. As the Child Care and 
Development Block Grant is reauthorized, we urge you, the 
members of the Senate Committee on Indian Affairs, to 
demonstrate your leadership in ensuring that all provisions in 
proposed child care reauthorization bills will ensure direct 
access to funds for tribes.
    Since the passage of the Personal Responsibility and Work 
Opportunities Reconciliation Act of 1996, new investments in 
child care have given tribes the opportunity to expand their 
child care programs. We find, however, that these investments 
are not sufficient to meet the needs of Indian families. 
Nationally, statistics indicate that only one in seven children 
eligible for child care assistance is receiving that help.
    The Child Care Coordinator from a tribe in California 
indicates the tribe has only enough funding to operate a child 
care facility for 15 children, yet close to 400 children in the 
community could benefit from a tribally-operated child care 
program.
    With the poverty rate approaching 50 percent in Indian 
country, and nearly 54 percent of Indian children being born to 
unwed mothers, child care funding is critical to families who 
are working and transitioning off public assistance to pursue 
work and educational opportunities. Helping pay for child care 
is critical to some low income families' ability to obtain and 
retain employment and support their families while they work.
    Thirty percent of tribal grantees receive less than $60,000 
annually to provide child care services; 45 percent of tribes 
receive less than $100,000 in Federal child care funding. With 
current funding levels, tribes are struggling to provide 
financial assistance to low income families and ensure that 
child are in much needed quality child care environments.
    The cost of care nationally averages $4,000 to $10,000 per 
year for a pre-school child. It is evident that current funding 
is significantly inadequate to meet the needs of the Indian 
community. Tribes currently receive 1 to 2 percent of the Child 
Care and Development Block Grant funds. The number of tribes 
participating in CCDBG has increased from 226 in 1994 to 262 in 
2002. Tribal child counts continue to increase each year as 
tribal populations grow.
    The 1995 U.S. Census report of population projections 
indicates the American Indian population is expected to make up 
an increasing share of the U.S. population. As the population 
continues to grow, an increasing number of Indian families will 
be in need of child care services for without adequate child 
care, which enables parents to work, the aim of self 
sufficiency for all types of families will not become a 
reality. An increase in the tribal setaside is essential for 
continued services.
    Cherokee Nation in Oklahoma is currently providing child 
care assistance to over 3,000 working families annually. In 
fiscal year 2001, the Cherokee Nation's monthly family caseload 
increased by an average of 26 percent. Current funding levels 
will not allow the continuation of the same level of services. 
The result is tribes will reduce child care service.
    The tribal child care administrators are currently in the 
process of developing new eligibility guidelines for families 
raising income guidelines and family share for the cost of care 
so that they will not be forced to develop a waiting list for 
families needing support to maintain employment. This places a 
huge financial burden on families who are already struggling to 
make ends meet. These families are the working poor.
    Unlike States which rely heavily on transfer funds from 
TANF and use funding from the State tax base to supplement 
child care services, most tribes rely solely on the CCDBG for 
child care funds. Without additional funding, tribal 
governments will be unable to continue to provide assistance to 
eligible families and to ensure that all families have access 
to quality child care.
    Already tribes have been forced to make cuts in tribal 
programs. A tribe in New Mexico had to eliminate all school age 
care last year due to limited funds. Even though they gave 
advance notice to families, alternate care options were not 
available to this community. Many of those children who had 
been in appropriate school age environments became latch key 
kids or were placed in substandard care.
    The U.S. Government through the Constitution, treaties, 
Supreme Court decisions, executive orders, and existing Federal 
policies recognized the right of tribes to self govern. In 1996 
during the reauthorization of the Child Care and Development 
Block Grant, law was enacted which is in direct violation of 
tribal sovereign powers. The Child Care and Development Block 
Grant Act, as amended, states:

    The Secretary of Health and Human Services, in consultation 
with tribes and tribal organizations, shall develop minimum 
health and safety standards.
    The National Indian Child Care Association strongly 
supports the assurance that Indian children are in healthy and 
safe environments. However, tribal governments must be the 
final authority in determining and developing the contents of 
the standards by which the child care facilities under their 
jurisdiction are governed.

    The U.S. Government allows all 50 States the discretion of 
developing their own health and safety standards, yet has 
chosen to impose standards for tribal governments. Not only is 
this an imposition on tribal sovereignty, it is unrealistic to 
believe that one set of standards would be appropriate for 262 
tribal grantees ranging in geographic location from Alaska to 
Florida.
    The National Indian Child Care Association advocacy agenda 
for 2002 details additional provisions of reauthorization 
supported by the membership. The agenda includes the top seven 
recommendations voted on by the membership and I am requesting 
to submit the paper as part of the testimony.
    Although our agenda did not speak directly to the 
provisions of quality care, we recognize there has been growing 
research and national attention focused on the impact of 
children's early experiences and their ability to learn and 
succeed when they enter school. With 65 percent of women with 
children under the age of 6 in the workforce, an increasing 
number of children are spending their early years in child 
care. As poverty rates in Indian country approach 50 percent, 
Indian children are at greater risk of poorer educational 
performance. Children of low income families score 
significantly lower on reading, math and vocabulary tests when 
compared with other children.
    Quality child care experiences can significantly impact the 
abilities of Indian children to be successful later in life. 
Yet, with limited funding, tribes must often make choices 
between affordability and quality of child care for low income 
families. With insufficient CCDBG dollars, we must choose 
between offering financial assistance to low income families 
who need help paying for care or supporting activities to 
enhance the quality of child care and ensuring our children are 
in programs which provide for their positive development.
    Tribes are currently required to spend a minimum of 4 
percent of funds on quality activities. We use these funds to 
monitor facilities to ensure that children are in safe 
environments, provide information and referral to parents in 
need of child care, train child care staff and offer grants so 
that child care facilities can make needed improvements to meet 
standards of care and other activities to improve the quality 
of care for Indian children.
    Sufficient funding should be available to help tribes 
ensure that Indian children are in high quality care and not 
choose between quality and the cost to families.
    I thank you for this opportunity to share with you the 
challenges that face tribal communities as we put forth efforts 
to ensure that tribal families have the necessary tools to 
become self sufficient. Child care is a critical component in 
these efforts. Funding must be increased to help more low 
income Indian families afford quality child care and to work 
toward improving the quality of the child care providers which 
is critical to our children's development and future success.
    We ask that you acknowledge the sovereignty of tribal and 
Native governments and the U.S. trust responsibility as you 
make the important decision to support and fund child care.
    Thank you.
    [Prepared statement of Ms. Quaid appears in appendix.]
    The Chairman. Thank you very much, President Quaid.
    Now may I recognize Mr. Cross.

 STATEMENT OF TERRY CROSS, EXECUTIVE DIRECTOR, NATIONAL INDIAN 
                   CHILD WELFARE ASSOCIATION

    Mr. Cross. Thank you.
    My name is Terry Cross and I am the executive director of 
the National Indian Child Welfare Association. I am very 
grateful for being asked to be on this panel today.
    You have my prepared remarks but I want to share some very 
important information with you. The reason I am here is to ask 
for the support for Indian children and families, the most 
vulnerable of the people that we are talking about here today.
    I want to urge the committee to support a correction to a 
longstanding oversight that actually does harm to our children 
and for this committee to take leadership and to thank you for 
your leadership on the title IV-E, Indian provisions that have 
been proposed.
    The members of this committee signing onto S. 550, you, 
Senator Inouye, Senator Campbell, Senator McCain, Senator 
Johnson, Senator Wellstone, Senator Akaka, and Senator 
Dominici. We thank you all for your leadership in signing onto 
S. 550.
    This is an important piece of legislation. For too long, 
our Indian children have been left behind. Title IV-E of the 
Social Security Act, also known as the Foster Care and Adoption 
Assistance Act, is the portion of Social Security that 
reimburses States for the cost of children in foster care of 
income eligible children. It also picks up the cost of some 
things like independent living and the adoption assistance 
programs.
    That funding stream was put into place in 1980 but due to 
an oversight in the original drafting of the legislation, 
tribes were omitted from that funding stream. As a result, what 
is supposed to be an entitlement for all eligible children is 
not an entitlement for Indian children on reservations under 
the custody of a tribal court.
    The only way those children can get access to those funds 
is through tribal/State agreements. We have learned over 
several years of trying to get those agreements in place, that 
they are not workable. Those agreements treat tribes as if they 
were licensed child placing agencies rather than governments. 
Most of those agreements pass through only the foster care 
payment to the foster parent and not the administrative or the 
training dollars. That is problematic.
    Probably the most important thing that I tell you today is 
what the impact of this is on our children and families. I will 
give you an example. From Alaska from the Metlakatla Tribe, the 
tribe recently had an 11 year old boy whose mental health 
problems were so severe that he needed to be placed. They had 
no trained foster parents for therapeutic foster home. They had 
relatives who thought they might be able to provide care, but 
none of them felt they could protect this child from himself.
    The tribe's only option was jail for this 11 year old boy 
so they could watch over him and make sure he wasn't going to 
harm himself or to send him far away and turn the case over to 
the State which would further complicate his mental health 
problems. There wasn't a good solution but there is a solution 
in this legislation.
    Tribal access to title IV-E would allow for training to 
foster parents. It would allow for special rates to be paid to 
people to do therapeutic care. It would allow case workers to 
be trained to develop those resources for kids and to develop 
options.
    In another situation, Navajo child, 3 years old, sexually 
abused, special needs child, none of her relatives would take 
her because of the nature of the sexual abuse. The tribal Child 
Welfare Department was able to find a single mom who would take 
care of her with no foster care payment because the tribe 
doesn't have access to any dollars to pay a foster care 
maintenance payment to a family. That 3-year old stayed in that 
home for 1 year and during that period that relationship grew 
and that foster parent wanted to adopt. So the child was moving 
toward adoption when that mom lost her job and could no longer 
provide care because she couldn't care for this child without 
resources, so the child had to be moved--a tragic experience in 
an already troubled child's life.
    The solution is in this legislation, direct funding to 
tribes. The foster care maintenance payments, rates for foster 
care parents to be able to take care of children with special 
needs and the services the tribes can provide to families in 
helping knit together resources.
    I want to tell you about Janet Gunderson at North Dakota, 
the Three Affiliated Tribes of Fort Berthold. Janet is a social 
worker there. A few years ago she was asked if she would 
temporarily take an infant who was medically fragile, a member 
of the tribe there, and she agreed to do so, thinking it was 
just temporary. Well, little children have a way of creating 
relationships with people who take care of them and Janet fell 
in love with Jordan and decided she wanted to keep her in her 
home despite the medical problems and moved toward adoption.
    The placement had been done by the county, the county 
favored the adoption. Custody was transferred to the tribal 
court and the tribal adoption was put in place but when Janet 
went back to the county for access to adoption assistance, she 
was told no, the tribe didn't have access to that program and 
because the adoption was done in tribal court, it didn't 
qualify for adoption assistance. Janet had to try to find 
private medical insurance to cover an already existing problem 
for her new child.
    Tribal operation of adoption assistance programs are 
essential if we are going to guarantee permanence for children.
    I also want to tell you about a child in the Siletz Tribe 
in Oregon. Oregon does have a title IV-E agreement with the 
Siletz Tribe but it only pays the foster care payment. 
Unfortunately, the tribe experienced a traumatic need in their 
social services to reach program dollars and so tribal child 
welfare services were cut and funds were channelled into a 
program to deal with some very serious issues around youth 
suicide.
    The child welfare caseload was picked up by inexperienced 
workers working in social services eligibility who had no 
training in child welfare and there was no money to hire a 
caseworker; 1 year later, tribal council discovered through 
many complaints from the community that several of the children 
in the caseload had not seen a caseworker in over 1 year.
    This is not the way to run child welfare. It is also not 
conscionable for one group of children in the Nation because of 
the nature of where they live and that they are members of 
tribal communities under the custody of tribal courts that they 
are excluded from the rights and benefits and the funding to 
support their needs that all other children in the Nation have 
access to.
    Why are we talking about it here at welfare reform? It is 
clear that the intent of welfare reform included the well being 
of children in the title IV-E system. The original legislation 
in 1996 says: ``In order for States to receive TANF block 
grants, they have to operate title IV-E.''
    The connection is clear but in that original legislation, 
there was not the political will to add Indian children to that 
formula. We think this is the time and we think this is the 
vehicle.
    We commend this committee for its attention to this issue 
and we thank Senator Baucus for including title IV-E 
legislation in his bill, also including the title 20 provisions 
that are so important to our families, as well as those 
provisions that would help build capacity in our tribes to run 
these programs. This is essential legislation, this is about 
survival, this is about children growing up in families they 
can call their own and we really thank you for the opportunity 
to bring this to your attention today.
    [Prepared statement of Mr. Cross appears in appendix.]
    The Chairman. Thank you very much, Mr. Cross.
    Listening to the testimony here brought to mind many issues 
that you touched upon. One, for example, sovereignty, only one 
of you mentioned sovereignty but the issue before us that is 
the most challenging that this committee has ever faced is 
sovereignty. Sovereignty is being very deliberately eroded, not 
by the Congress, not by the executive branch, but by the 
Supreme Court.
    At one time, Indian country was able to look upon the 
Supreme Court as the saving grace, the sanctuary. Today, it has 
somehow changed. If you look at the decisions over the past 20 
years, you will find that things have changed. Since Supreme 
Court decisions are usually read by lawyers and special 
interest groups, the general public is not aware of these 
changes. Very few people ever challenge Supreme Court 
decisions, and many think the Supreme Court is the voice of 
God.
    Well, I have had several meetings with Indian leaders and 
they are convinced that this is the most dangerous challenge 
they have ever faced.
    Second, it seems apparent that the plans we had in 
providing funds and grants to be authorized and administered by 
the States may work in some cases if the State organization or 
the government is not only knowledgeable but sensitive to 
Indian problems but not all States operate that way. So the 
measures we will be considering will provide to the extent 
possible and feasible direct funding to the tribes instead of 
going through the States.
    Third, it takes a little while for all of us to catch on, 
especially when it concerns children. This might seem strange 
but up to 10 years ago, by the application of our laws, 
children were looked upon as little adults. As a result, even 
in the medical profession, if you looked at all the ambulances 
10 years ago, the equipment they had was equipment for adults. 
You cannot shove a medical instrument down a little throat, 
especially if the instrument is made for a huge adult throat.
    Finally, the Federal Government recognized that. It took us 
190 years to realize that children are not little adults, they 
are babies.
    All your discussions reminded me of my other assignment. I 
am chairman of the Defense Appropriations Committee. As you 
know, all of the men and women in uniform are volunteers, so 
the matter of recruitment and retaintion becomes a matter of 
major concern. In order to do that, we now find it necessary to 
have day care centers, so every military installation has a day 
care center; every camp has a day care center. We have places 
to train mothers, we have centers for exercising. The men say 
we need a gym. These things were not provided in the past.
    It may interest you to know that Walter Reed Hospital, 
which is located a few miles from here, is the flagship of the 
U.S. Army hospital system and 17 percent of the beds are 
occupied by soldiers. The rest are occupied by dependents. To 
put it another way, when I was in the service 60 years ago, 
World War II, the regiments throughout the land averaged 24 
percent of those who served in the Armed Forces had dependents, 
76 percent were without dependents. They were all young kids. 
Today, it is the reverse, 76 percent have dependents, 24 
percent do not have dependents. So there are more gynecologists 
than orthopedic surgeons, more pediatric surgeons than 
ophthalmologists.
    The military is facing the facts of life. It took them a 
little while but we hope to catch-up with them and in the area 
of welfare reform in Indian country, the Baucus bill I think 
has answers to some of our problems. Mr. Cross mentioned a very 
important phrase, ``political will.'' There are many ways of 
indicating political will and I tried to suggest to you that 
you all write in, not just a mimeographed resolution or a 
mimeographed card. Spend 5 minutes, take out a sheet of paper, 
use a pencil or pen and write out a note: ``Dear Senator 
Baucus, you have a good bill here, I support it, we need it, 
sincerely yours.''
    That will mean more than an NCAI resolution, believe me. 
The resolutions are important but if they receive letters from 
their constituents, that will make it much more important.
    With that, we would like to submit questions to you if we 
may. I have about 5 minutes left.
    Ms. Hicks, you had some suggestions for the reauthorization 
of the welfare reform law. Would you suggest any limitations? 
Let me explain. Statistics can be misleading. According to the 
latest GAO study of unemployment in reservations, it averages 
roughly 50 percent.
    Ms. Hicks. Right.
    The Chairman. But then on the other hand, at one extreme 
you have tribes with 92 percent unemployment and perhaps on 
another reservation there is no unemployment. There are a few 
very wealthy tribes. Should there be a cap, a limit?
    Ms. Hicks. In terms of the joblessness exemption that is in 
the law right now? Tribes have put a variety of proposals on 
the table and there is a lot of discussion about what the 
appropriate rate might be and to some extent arguing about 
whether it should be 30 percent or 20 percent is arbitrary, it 
makes very little difference to the people in those communities 
whether their joblessness rate is 30 percent or 20 percent, it 
is still just as hard to find a job. The realities of their 
life there in terms of their family income and poverty rates in 
those communities, the support services available are all 
negligible if you are looking at a difference like that.
    There are some meaningful ways to get around the numbers 
game, to talk about things other than just what the joblessness 
rate is. Certainly that is one way to look at it, to try and 
have a target, kind of a joblessness rate, and that is useful.
    I think on the other hand what tribes are really concerned 
about, the bottomline, is that for people who are meeting all 
the requirements of their program, for people complying with 
their individual responsibility plan, who are going to their 
substance abuse treatment, meeting with their case managers, 
for people doing everything we ask of them but there just isn't 
a job, it is really not fair, not fair to expect people to work 
in those communities when they are doing everything else that 
has been asked of them.
    Certainly we have learned from history, from various 
policies that it is not appropriate, nor desirable, to force 
people to leave reservations but, to the extent we can provide 
the services in our own communities and have people comply with 
those services, maybe that is a better way to think about how 
to address the situation of compliance with programs. The 
intention is to rethink some of the issues around time limits 
and when it is appropriate to expect people to go to work. It 
may be more appropriate to really look at what people are doing 
in those communities, what kind of activities are available and 
if people are doing everything we asked of them.
    The Chairman. One of the things you mentioned was food 
stamps. Is Indian country willing to accept liability for any 
additional cost of the food stamp program administration and be 
subject to the same penalties that States are subjected to?
    Ms. Hill. Yes; we are. We thoroughly researched the issue 
of fraud and we have decided that yes, we can handle that. 
Also, we looked at what the administration cost for 600 
families would be and it is less than $500,000, just for the 
admin cost. That does not include the cost for the benefit as 
well. I have a copy of the proposed administration plan but I 
didn't bring the policies and procedures part of it which is 
about 170 pages which I will get to you.
    The Chairman. Ms. Quaid, the committee has begun studies on 
early childhood education. I am sorry we did not know about 
your interest in this but we had many witnesses in a hearing we 
held an that subject in April. We are of the belief now that 
education begins even before birth and we are trying our best 
to make certain that type of program applies not only in urban 
areas but also on reservations. So we will do our very best.
    Ms. Quaid. Thank you. Many of the tribes enjoy program 
funding from HHS through Head Start and Early Head Start and 
MCH programs. I think the key is really tying all those 
together in a holistic way to look at the entire health and 
wellness of the whole family. We have always enjoyed a lot of 
cooperation from the Child Care Bureau in exercising the 
flexibility that we have had in child care in developing 
quality. One of the greatest changes they made during the life 
of the first PRWORA was the ability to renovate and construct 
facilities. That has made a lot of difference in Indian country 
and provided more quality child care slots for kids and of 
course contributing to the development of each child and also 
meeting the special needs of kids who are disabled or in foster 
care, or are adopted. A lot of flexibility is allowed in the 
child care development plan for tribes to address the needs of 
all the children in the community and all the families. So 
thank you.
    The Chairman. Mr. Apesahnakwat, you spoke of your proposal. 
May I request that you submit that in writing to us because I 
have not seen your proposal.
    Mr. Apesahnakwat. Yes, sir; we dropped it off with Janet 
Erickson, in your office, so yes, sir, we will.
    The Chairman. She has not given it to me yet.
    With that, I would like to thank all of you for joining us 
this morning. It has been a good morning as far as I am 
concerned. I wish we could spend more time but we have other 
assignments this afternoon.
    I will keep open the record for 4 weeks. If you wish to 
submit addendums, further testimony, or if you want to make 
corrections, please feel free to do so. We will be submitting 
additional questions to you all if we may.
    Thank you very much and with that, thank you.
    [Whereupon, at 12:19 p.m., the committee adjourned, to 
reconvene at the call of the Chair.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


 Prepared Statement of Perry R. Ahsogeak, Vice President of Programs, 
                     Cook Inlet Tribal Council, Inc

    Thank you, Mr. Chairman and members of the Senate Committee on 
Indian Affairs. My name is Perry R. Ahsogeak. I am the Vice President 
of Programs for the Cook Inlet Tribal Council, Inc. an Alaska Native 
non-profit organization that provides services within the boundaries of 
the Municipality of Anchorage and seven (7) surrounding Alaska Native 
villages. The Cook Inlet Tribal Council, Inc. administers Federal and 
State social services programs to the Alaska Natives and Native 
Americans that reside within our designated service area. Thank you for 
the opportunity to provide testimony on this very important 
legislation. I will focus my remarks on the following three issues; the 
need for a new Tribal TANF Improvement Fund, the need for a Tribal 
Employment Services Program and an increase in the tribal set-aside 
within the Child Care Development Funds.
    State governments have benefited from decades of Federal investment 
in their administrative capacity, particularly in their information 
management systems. The tribes who elected to administer TANF did not 
have the benefit of the same degree of administrative capacity and 
experienced hardships associated with that deficiency. The 
reauthorization of PRWORA creates a tribal TANF Improvement Fund of 
$500 million (to be available for 5 years) to promote and sustain 
administrative capacity. This fund would be dispensed in three parts;
    Tribal Capacity Grants: $250 million of the funds would be reserved 
for competitive grants to tribal organizations applying to operate TANF 
for social services program infrastructure improvement, with a priority 
for management information systems.
    Tribal TANF Supplemental Grants: Population growth among Alaska 
Natives in Southcentral Alaska, primarily in the Anchorage area, 
significantly exceeds the national average. Tribal TANF allocations are 
based on 1994 population figures; $140 million of the fund would be 
reserved for supplemental grants to tribal TANF programs to be 
allocated among all tribal organizations with population growth between 
1994-2000 that is above the rate of growth for the country as a whole. 
Funds would be allocated proportionate to size and service population 
on the basis of a formula to be determined by HHS in consultation with 
tribes and tribal organizations.
    The funds would be distributed in two rounds. For fiscal year 2004 
and fiscal year 2005, $30 million each year will be distributed by the 
initial formula. For fiscal year 2006 and fiscal year 2007, $40 million 
each year reserved will be distributed by a revised formula, to allow 
tribal organizations that take over operation of TANF after the initial 
distribution to also be eligible for funds. Up to an additional $100 
million would be available to supplement tribal TANF allocations for 
those tribal organizations unable to obtain state maintenance of effort 
(MOE) support. Tribal organizations would request the funding as part 
of applying for a TANF program and would have to demonstrate their 
state is unwilling to provide funding. Tribal organizations already 
operating TANF programs without state MOE funds would also be eligible 
to apply for funds.
    Technical Assistance: HHS would receive $10 million to provide 
technical assistance to tribal organizations. At least $2.5 million of 
these funds would be reserved to support peer-learning programs among 
tribal administrators and at least $25 million would be reserved for 
grants to tribal organization to consolidate feasibility studies of 
their capacity to operate TANF.
    The second issue I will address is the need for a new Tribal 
Employment Services Program. Consolidating the existing Tribal NEW 
program with the tribal Welfare to Work grants would create this 
program. It would be funded at $37 million annually and distributed to 
current Tribal NEW and Welfare to Work grantees as well as new 
applicants. The current Tribal NEW program allocation is based on 1994 
population figures and is not adequate to support today's difficult to 
serve Alaska Native and American Indian population. This consolidation 
would broaden the scope of job-readiness activities and other 
employment related services for families on public assistance or at 
risk of being on assistance, including intensive services for teen 
parents. Tribes could also use the funds to assist non-custodial 
parents of children on or at risk of being on, public assistance.
    My final remarks address the issue of Tribal Child Care. The 
availability of quality child care is a major factor in the transition 
from welfare to work for TANF clients. For parent(s) to leave welfare 
or other public assistance programs, obtain basic marketable skills and 
move into the workforce, the lack of childcare can make the difference 
between success or failure to obtain and sustain employment. In 
particular, infant care and care for children with special needs is 
expensive and hard to find. As more families leave the welfare system 
and become employed the need for services continues to steadily 
increase. For many TANF families who initially find entry-level 
employment the cost of childcare is clearly beyond what their income 
can maintain. The tribal set-aside within the Child Care Development 
Fund must be increased from the current 2 percent to 5 percent.
    This concludes my remarks. Mr. Chairman, I express my appreciation 
for the opportunity to testify on these important issues faced by 
Alaska's Native people.
                                 ______
                                 

   Prepared Statement of Sarah Hicks, National Congress of American 
                             Indians [NCAI]

    Chairman Inouye, Vice Chairman Campbell, and members of the 
committee, I would like to thank you for inviting NCAI to testify on 
the implementation and reauthorization of the Personal Responsibility 
and Work Opportunity Reconciliation Act of 1996. As you know, the 
National Congress of American Indians, the oldest, largest and most 
representative organization of American Indian and Alaska Native tribes 
and individuals in the nation, has worked actively with tribal 
governments throughout the country on the implementation of welfare 
reform since the passage of Public Law 104-193. NCAI has facilitated an 
ongoing Welfare Reform Task Force composed of tribal representatives 
from all regions of Indian Country, and has coordinated a range of 
tribal activities relating to welfare reform implementation, improving 
state/tribal relationships, and exploring opportunities for increased 
tribal participation in local public policy development under a 3-year 
grant from the W. K. Kellogg Foundation.
    My name is Sarah Hicks, and I serve as the Director of the Welfare 
Reform Program at NCAL Over the last 5 years, I've coordinated a range 
of tribal activities relating to welfare reform, and have had the 
remarkable opportunity to work with tribes throughout the country on 
the implementation of State and Tribal TANF and a host of related 
programs. For 3 years, NCAI has facilitated a workgroup of TANF tribes. 
In the absence of Federal resources to provide technical assistance and 
share program knowledge, NCAI coordinated a peer-learning process based 
on information sharing meetings, where tribes met on one another's 
reservations, toured each other's programs, and, for the last 2 years, 
spent considerable time and energy on discussions focused on the 
reauthorization of the welfare reform law.
    Within the last year, tribes have also entered into serious dialog 
with states about welfare reform reauthorization. Through our 
partnership with the American Public Human Services Association 
(APHSA), NCAI, and TANF tribes have made considerable headway in 
finding common ground between states and tribes on many reauthorization 
issues. This morning, I'm here to share with you three brief themes I 
have gathered in my work with the 36 Tribal TANF programs (serving 174 
tribes), the many tribes that are still served by State TANF programs, 
and a variety of State TANF programs that serve large Indian TANF 
caseloads. In addition to my testimony today, a range of specific 
recommendations from our workgroup are discussed more thoroughly in an 
attachment to my formal statement, which I would like to submit for the 
record with my testimony.
    NCAI Testimony to the Senate Committee on Indian Affairs Regarding 
Reauthorization of PRWORA
    First, tribes support welfare reform efforts. The concept of 
welfare reform resonates with American Indian and Alaska Native tribes. 
I have found tribal governments to be universally in favor of 
individual responsibility and work coupled with appropriate community 
supports. Tribes are proponents of addressing issues comprehensively 
with a whole systems approach, looking holistically at family needs. 
Tribal governments have shown a strong preference for the flexibility 
to facilitate locally designed and administered programs that fit their 
unique community needs.
    In many ways, the welfare reform law provided tribes with a good 
blueprint for change. But in its current form, I would have to say that 
the existing law has not brought enough change to Indian country. Due 
to the severe lack of jobs on reservations, work rates for Indian 
participants in both State and Tribal TANF programs are significantly 
below average. Poverty rates remain high on reservations. Many support 
services, such as child care and transportation, are largely 
unavailable on reservations. Job training programs have lengthy waiting 
lists in many cases. On other reservations, program participants are 
nearly ``trained to death'' but still can't get a job because of the 
lack of employment.
    This leads me to my second point. The key to meaningful reform in 
tribal communities is flexibility. Too often welfare reform is thought 
of as encompassing only the Temporary Assistance for Needy Families 
program. And too often, tribal options around welfare reform 
implementation are seen by both tribes and states as either (1) a tribe 
receiving Federal funding for the administration of TANF or (2) the 
tribe continuing to receive TANF benefits and services from the state. 
In actuality, there are a whole range of options between the decision 
``to TANF'' or ``not to TANF.'' Because the government closest to the 
people can provide the best service, we think that in the vast majority 
of cases, tribes are able to provide social services to their people 
more effectively than states. For the most part, states agree with us.
    For a whole variety of reasons, tribes may decide not to administer 
a Tribal TANF program. In fact, according to GAO and the Congressional 
Research Service, 305 tribes (and close to 40,000 Indian families) are 
currently being served by State TANF programs. Further, as State TANF 
caseloads decline, an increasing percentage of welfare recipients on 
many state programs are Indian. Tribes that cannot financially afford 
to run TANF or that simply opt not to administer the program can still 
work with the State TANF program to develop the necessary referral 
systems between various state and tribal support programs as well as to 
contract with the state for the tribal administration of case 
management or work and training components of TANF. In fact, many of 
the tribes that administer TANF contract some of the administrative 
functions (such as the distribution of assistance checks and Federal 
reporting requirements) back to their respective states.
    The bottomline is this: As with all locally designed programs, the 
key for successful Tribal TANF programs and State TANF programs serving 
Indian communities is flexibility in service delivery arrangements. 
This flexibility will also be critical in the potential of many states 
with large Indian populations to meet increased work requirements and 
work participation rates. Tribal TANF programs need to maintain the 
flexibility that we have: the flexibility to define our service area, 
service population and work activities, as well as to negotiate work 
requirements and work participation rates.
    Tribes in Alaska face a unique limitation in the existing welfare 
reform law, are treated differently than tribes in the lower 48 states, 
and should be given the same flexibility as other tribes. The current 
law limits Alaskan tribes' flexibility through two provisions, the NCAI 
Testimony to the Senate Committee on Indian Affairs Regarding 
Reauthorization of PRWORA first of which gives the authority for direct 
Tribal TANF funding and administration in Alaska to 12 regional non-
profit corporations instead of the state's federally recognized tribal 
governments. This has a dramatic impact on tribal governments because 
Alaska's 227 tribes make up 40 percent of all tribes in the United 
States. Additionally, a second provision requires Tribal TANF programs 
in Alaska to be ``comparable'' to the state-operated TANF program. 
These provisions hinder self-determination and the ability of tribes in 
Alaska to make tribal-specific program decisions.
    State governments also need increased flexibility. States need the 
ability to contract with tribes, allowing state TANF funds transferred 
to tribes to take on the identity of tribal funds. The states of 
Alaska, Minnesota, and Washington already use TANF funds to contract 
with tribes for the provision of job training and workforce development 
activities. But, with increased flexibility, state TANF programs could 
contract with tribes for employment and training services, enabling 
tribes to report to the Federal Government in their existing annual 
tribal employment program reports on the use of funds, relieving states 
of the undesirable responsibility of ``monitoring'' tribal activities. 
Precedent for this kind of arrangement already exists when states 
transfer TANF funds to the Child Care Development Block Grant and to 
the Title XX Social Services Block Grant.
    My third point is that the notion of welfare reform is much broader 
than TANF. TANF is a flexible funding stream to provide time-limited 
assistance for poor families and facilitate their climb on the ladder 
to self-sufficiency. The linkages between TANF and many other social 
support and assistance programs are well-documented. We should think 
about welfare reform in Indian country with a similar view. The formula 
for meaningful welfare reform includes:
    Financial assistance programs for poor and fragile families, 
including TANF, Child Support, and Foster Care;
    Related support services that enable recipients to get and keep a 
job, such as child care, transportation, mental health care, substance 
abuse treatment, and other needed support systems;
    Job training programs to build skills for work, qualifying 
recipients for available jobs; and Tribal economic development to 
provide recipients jobs at which they can earn a living wage and become 
self-sufficient.
    In our work with APHSA, tribes have begun to discuss the continuum 
of tribal administration of human service programs on their 
reservations. In some cases, tribes administer all of the programs for 
which they have the authority to receive direct funding and contract 
with states to administer others. The welfare reform reauthorization 
debate is likely to continue to raise issues relating to the desire of 
some tribal governments to administer other TANF-related programs, like 
Title IV-E Foster Care, the Social Services Block Grant, the Food Stamp 
Program, Medicaid, and the Children's Health Insurance Program, none of 
which are currently available to tribes.
    As tribes continue to build more comprehensive local service 
delivery systems, providing better access to services and closer ties 
to local jobs, the well-being of tribal citizens is improving. Tribes 
are increasingly capable of administering more sophisticated and 
complex service systems. As the opportunity to administer new programs 
becomes available to tribes, flexible rules and program options must be 
in place. Tribes strongly concur with DHHS Secretary Tommy Thompson's 
statement that ``Barriers must not become excuses-either for government 
or for former welfare recipients, especially if we can work together to 
improve matters and move more people to the workforce.'' State-tribal 
coordination and collaboration to serve reservation-based families 
underpins the ability of governments to deal with barriers.
    The importance of economic development to successful welfare reform 
implementation cannot be overstated. As my colleagues Drs. Eddie Brown 
and Stephen Cornell have stated, ``Even if the funding problems with 
TANF and its related training programs can be solved--and even if 
Federal policy were to provide Indian nations with more flexibility and 
control over the design and implementation of reform, a sobering fact 
remains: without an economic growth strategy, welfare reform in Indian 
country will fail.'' Welfare reform reauthorization must address the 
need for economic growth to support employment on reservations.
    A two-pronged approach is necessary. First, tribes need more 
flexibility to use existing resources; legislation like S. 343, the 
Indian Tribal Development Consolidated Funding Act, is one such tool. 
Second, tribes need additional resources-both for economic 
infrastructure and direct job creation. In terms of infrastructure, 
tribes desperately need to develop better transportation systems and 
create a more business friendly environment. Transportation is critical 
both for human capital development (getting people to training 
opportunities and jobs) as well as important infrastructure for the 
distribution of goods and services both on and off of reservations. 
Creating a more business-friendly environment on reservations requires 
uniform commercial codes, tort liability codes, collaborative business 
networks, telecommunications infrastructure, and tribal marketing 
efforts. Development grants to provide targeted, concrete technical 
assistance to tribes in these areas would be a worthwhile and fairly 
inexpensive way to really facilitate economic growth on Indian 
reservations. Finally, the expansion of tribal authority to issue 
private activity bonds for reservation-based economic activity is a way 
to directly create jobs on reservations.
    In closing, there's no doubt that many Tribal TANF Programs have 
been successful in creatively addressing the challenges they face. 
Tribal TANF programs are doing what most states have had considerable 
difficulty in doing: working intensely with multiple barrier families 
on reservations. Tribal TANF has given tribal members access to support 
services and job opportunities and has resulted in TANF recipients 
increasingly being involved in meaningful work activities and making 
progress on Individual Responsibility Plans. Tribal TANF programs have 
been able to facilitate limited economic development (particularly in 
the area of microenterprise) and job creation. Tribal TANF programs 
have worked closely with faith-based organizations, emphasized family 
formation and responsible fatherhood activities, and reduced teen 
pregnancies. However, in examining the areas of Federal welfare reform 
policy that could be refined to yield far-reaching results in Indian 
country, it is clear that reauthorization must include the following:
    Building Tribal TANF infrastructure by providing resources for 
Tribal TANF startup, Management Information Systems, and staff 
training;
    Accessing sufficient on-going TANF administration resources by 
providing incentives for adequate State TANF contributions to Tribal 
TANF programs or making a commitment for the full Federal funding of 
Tribal TANF;
    Establishing equity for Tribal TANF through access to the same 
resources state programs enjoy (such as the high performance bonus, the 
Contingency Fund, Technical Assistance, and Research); and
    Economic development in Indian count with increased flexibility to 
use existing resources and increased resources for development 
infrastructure and job creation.
    Overall, tribes strongly support welfare reform reauthorization and 
look forward to taking the next step to bring increased opportunity to 
Indian reservations. We commend the committee for its commitment to 
Indian Country, and appreciate its focus on welfare reform, an issue 
that profoundly affects the well-being of Indian people. Thank you for 
your invitation to testify, and I welcome any questions that you might 
have.
                                 ______
                                 

   Prepared Statement of Michael Peters, Tribal Secretary, Sisseton-
                          Wahpeton Sioux Tribe

    Good Morning, Chairman Inouye and distinguished members of the 
Committee of Indian Affairs. I bring you greetings from the Sisseton-
Wahpeton Sioux Tribal Council. My name is Michael Peters, the elected 
Tribal Secretary of the tribe and I thank you for the opportunity to 
present testimony on tribal concerns in regard to the reauthorization 
of the Federal welfare reform law Personal Responsibility and Work 
Opportunity Reconciliation Act [PRWORA].
    The Sisseton-Wahpeton Sioux Tribe of the Lake Traverse Reservation 
is located in northeastern South Dakota with a small portion of the 
reservation being located in southeastern North Dakota. The reservation 
was established by the Treaty of 1867 and currently according to tribal 
data has a tribal membership of 10,726 of which 4,830 reside on or the 
near the reservation.
    We are a people rich in tradition and are proud of our heritage, 
however many of our people live in severe poverty and with current 
economic conditions on the reservation they will have little 
opportunity to become self-sufficient. The following conditions 
illustrate the difficulty tribal members have in seeking and retaining 
employment. Current tribal data shows a poverty rate in excess of sixty 
(60) percent and an unemployment rate of approximately forty (40) 
percent. Lack of jobs, basic education, skill training, childcare 
facilities, transportation, and substance abuse are the major barriers 
to employment and self-sufficiency for many tribal members. 
Additionally there are many families who have a job but are 
underemployed. They have incomes that are below poverty guidelines and 
thus they have problems that relate to retaining employment. In many 
areas of the country the above conditions would be considered a real 
tragedy.
    Because of the above conditions, the tribe is and has been very 
concerned with the welfare of its members particularly its young 
people. In October 1987, the tribe implemented its own Temporary 
Assistance for Needy Families Program without State matching funds with 
the firm conviction that the tribe knows best the needs of its people 
and is in the best position to address those needs. This year the tribe 
has received direct Federal funding for its own Child Support 
Enforcement Program with the purpose of ensuring that all children 
affiliated with the tribe are able to determine their lineage and 
obtain child support from responsible parents in a culturally sensitive 
manner.
    In the tribe's opinion, its administration of the Temporary 
Assistance for Needy Programs (TANF) has been a success. Approximately, 
sixty (60) percent of the initial TANF caseload (October 1997) no 
longer receives TANF benefits and of the remaining forty (40) percent 
less than one (1) percent will reach the 60-month time limit. This 
success can be attributed to the tribe being able to integrate TANF 
into its Public Law 102-477 (477 Program) Indian Employment, Training, 
and Related Services Program and target the majority of these resources 
to welfare recipients. Other resources related to welfare reform that 
have been included into the tribe's 477 Program include Native 
Employment Works, Child Care Development Fund, Work Force Investment 
Act Programs, Adult Vocational Training, Employment Assistance, General 
Assistance, and the Tribal Work Experience Program.
    With resources found in its 477 program the tribe was able to run a 
pilot project for children in its largest political district, which 
encouraged children to stay in school, prepare for work, and stay off 
welfare. Young people were involved in discussions on career 
development, career readiness and future goal planning; healthy life 
styles and self-sufficiency; and responsible families in the Dakota 
culture. However, presently the tribe lacks the resources to build on 
and expand this pilot project.
    The Tribal Council does provide limited financial support to its 
477 program, however the Council recognizes that if there is to be a 
solution to welfare dependency these funds must eventually be utilized 
for economic development activities that create jobs for welfare 
recipients.
    Despite the success, there has not been a drop in the tribe's TANF 
caseload. Since the implementation of TANF the tribe's caseload has 
remained relatively constant because:

  <bullet> \\\\\\Tribal members not being able to retain employment 
        (problems with transportation and childcare)

  <bullet> \\\\\\Family breakdown/substance abuse problems

  <bullet> \\\\\\A continual inflow of new cases--particularity young 
        mothers. The tribe has found that Indian people are much more 
        apt to seek services from a tribal program than from a State 
        administered program and they hold the tribe much more 
        accountable for the quality of services delivered

  <bullet> \\\\\\Lack of support from the non-custodial parent

    Welfare reform truly has not brought significant change to the Lake 
Traverse Reservation.
    The Sisseton-Wahpeton Sioux Tribe has made a major commitment to 
help our people to meet the challenges of welfare reform. We have 
devoted tribal as well as many of our Federal resources to welfare 
reform. But the tribe cannot do this job alone. We offer the following 
recommendations:
    In terms of Federal resources for our employment services:
    We need continued direct funding for our tribal employment 
programs. We do not receive funding from the State of South Dakota for 
these services and we do not receive sufficient tribal TANF funds to be 
able to provide the services necessary to move our people from welfare 
to work. Any reauthorization of the welfare reform law must provide for 
the direct funding of tribal employment services.
    We need support for tribal employment services at an adequate 
level. We support a tribal employment services program that includes 
the funding we received from the Native Employment Works (NEW) and the 
Welfare-to-Work program and an increase necessary for us serve clients 
with more barriers to employment. The tribe under its Child Support 
Enforcement Program can now make non-custodial parents accountable to 
support their children, however many need basic education and skill 
training which will enable them find and retain employment so they can 
provide the needed support. Simply continuing the NEW program for 
another 5 years at its FY-94 funding level will not give the tribe the 
capacity to provide services to non-custodial parents.
    We need the ability to integrate all the necessary services into a 
single program that makes sense to the tribe and works effectively at 
the reservation level. The tribe has tried to do this under Public Law 
102-477. The integrated approach is essential to the tribe's continues 
success with welfare reform. Program integration is a goal of the 
President's welfare reform proposals. However, we and other 477 tribes 
have been hamstrung by objections raised by HHS staff to integrating 
TANF and NEW with our other programs under a single plan, single 
budget, and single report. The welfare reauthorization law must include 
strong language that HHS must respect our ability to use 477 as a 
tribal tool for program integration.
    We need a requirement in the Law that HHS and all other Federal 
agencies involved must consult with the tribal governments on 
regulations and policies governing the various Federal programs. The 
tribe cannot afford to have its plans undermined by Federal rules 
adopted without our input and which makes our job impossible.
    In terms of Federal Resources for Tribal TANF:
    We need to a way to insure that our TANF recipients receive at 
least the same level of resources per person that State TANF recipients 
receive. Our employment services are closely integrated with our cash 
assistance programs, including General Assistance, and supportive 
services such as childcare. If our TANF program is shortchanged because 
the State of South Dakota chooses not to provide matching funds, all 
the services suffer and our people do not receive all the help they 
need. The reauthorization of welfare reform must provide for an 
adjustment to tribal TANF funding levels in situations like ours where 
there is not state ``match.'' Reauthorization should also provide bonus 
and contingency funds for tribes.
    We strongly recommend that reauthorization continue to protect the 
tribal flexibility to distinctly define their service area and service 
population and the ability to negotiate minimum work participation 
requirements.
    We also recommend a reduction in the fifty (50) percent joblessness 
rate found in Section 408 of PRWORA. This tribe strongly recommends 
stopping the clock for months of assistance where TANF recipients are 
meeting all the program requirements but cannot find employment because 
of the lack of employment opportunities within reservation.
    And, we need support for economic development to insure that there 
are jobs for welfare recipients. If welfare reform is to be about 
reducing dependency on public assistance in tribal communities, it must 
also be about creating jobs in reservation areas for welfare recipients 
so welfare recipients can become self-sufficient.
    The Sisseton-Wahpeton Sioux Tribe has taken tribal sovereignty very 
seriously. We have applied this concept to our tribal services, as well 
as our approach to many other issues.
    We were one of the first tribes to take the opportunity to 
integrate many of our services under Public Law 102-477. We were one 
the first tribes to run our own tribal TANF program. We continue to be 
the only tribe in the State of South Dakota that has done so. We were 
one of the first tribe to implement our own Child Support Enforcement 
Program. This is a record we are proud of.
    We intend to continue to serve our people in ways that are 
consistent with our tribal traditions and the needs of our communities. 
What we ask is simply that you make it possible for us to help 
ourselves more effectively and that you continue the Indian Affairs 
Committee's strong commitment to tribal sovereignty in all its aspects.
                                 ______
                                 

Prepared Statement of Jack F. Trope, Executive Director, Association on 
                      American Indian Affairs, Inc

    Chairman Inouye, Vice Chairman Campbell, and members of the Senate 
Committee on Indian Affairs. Please accept this testimony for the 
record on behalf of the Association on American Indian Affairs, Inc. 
[AAIA]. AAIA is an 80-year-old citizens' organization governed by an 
all-Native American Board of Directors, with members in all 50 States 
and offices in South Dakota, New Mexico and Arizona. AAIA was formed, 
and has worked closely with tribes, to promote the welfare of American 
Indians and Alaska Natives. This has included the defense of the 
constitutional rights of Indian tribes and their members, efforts to 
improve their health, economic and educational conditions and support 
for the perpetuation of their cultures.
    As part of its work, AAIA has long been involved in the effort to 
obtain adequate tribal funding from Federal block grants and 
entitlement programs. In 1988, then-Congressman Morris Udall introduced 
a bill at AAIA's request that would have provided for direct tribal 
funding from the Title XX Block Grant program, Titles IV-B and IV-E of 
the Social Security Act and the Alcohol, Drug Abuse and Mental Health 
Block Grant. In 1990 and 1991, AAIA was invited to testify on these 
tribal funding issues by both the Subcommittee on Social Security and 
Family Policy of the Senate Finance Committee and a subcommittee of the 
House Ways and Means Committee. AAIA has continued to actively work 
with House and Senate staff on these issues, as well as organizations 
like the National Indian Child Welfare Association, for the last 
several years.
    AAIA enthusiastically applauds Senator Baucus' introduction of S. 
2484. While we believe that there are many meritorious provisions in 
the bill, we particularly want to emphasize our support for sections 10 
and 13 of the bill. These sections would make tribes eligible for 
direct funding under the Title IV-E Foster and Adoption Assistance 
program and the Title XX Social Services Block Grant. As you know, 
section 10 is based upon S. 550, sponsored by Senator Daschle and co-
sponsored by 16 Senators, including many of the Senators on this 
Committee. We thank all of those Senators for their support on this 
issue and their commitment to Indian families, children and tribes and 
would particularly like to recognize those Senators from states where 
AAIA is currently located--Senators Daschle, Johnson, Bingaman, 
Dominici, and McCain.
    As has been well documented, tribal exclusion from these programs 
was not deliberate. At that time (1980), the committees addressing 
these issues did not fully understand and recognize the critical role 
of tribal governments in service delivery to children, nor the inherent 
sovereignty of Indian tribal nations. Today, Congress has a better 
understanding of tribal sovereignty and the critical role of tribal 
governments in providing services to children and families and, as the 
aforementioned Senators have recognized, it is time to correct this 
oversight. Tribal governments are the entities best situated to provide 
such services to their communities for several reasons:

  <bullet> \\\\\\Indian tribes are ``domestic dependent nations'' with 
        inherent sovereign powers. They have a direct government-to-
        government relationship with the Federal Government and are not 
        subdivisions of the states.

  <bullet> \\\\\\History has shown, and a 1994 HHS inspector general 
        report confirms, that states do not generally pass through 
        block grant funding to tribal governments; in the case of Title 
        IV-E, there have been some tribal-state agreements negotiated, 
        but they are limited in number and scope and generally do not 
        include the full array of IV-E services and administrative 
        support that states are able to access.

  <bullet> \\\\\\Tribal programs are more attuned to the special 
        programmatic and cultural needs of their local communities and 
        have experience in operating quality programs when resources 
        are available; permanency for Indian children who need out-of-
        home placements is best achieved when tribes have the resources 
        to ensure that quality foster care and adoptive placements for 
        these children.

  <bullet> \\\\\\Tribal members continue to experience inequity in the 
        quality and quantity of services available under State-
        administered programs.

  <bullet> \\\\\\Although some tribes have accumulated significant 
        resources because of their successful gaming operations, most 
        tribes continue to lack a substantial economic and tax base 
        from which to generate resources.

  <bullet> \\\\\\Federal resources provided for Indian people for 
        social services through Bureau of Indian Affairs and Indian 
        Health Services budgets have consistently been inadequate, 
        falling far short of need.

  <bullet> \\\\\\In the case of Title IV-E, providing for tribal access 
        to this program would address a substantial injustice--namely, 
        that some of the neediest children in the country are excluded 
        from a program that is an entitlement for all other similarly 
        situated children, simply because they fall under tribal 
        jurisdiction.

    Of note, support for these provisions is not limited to tribes and 
Indian organizations. For example, the 1994 HHS Inspector General 
report specifically recommended direct funding to tribes under Titles 
IV-E and XX and state-based groups such as the American Public Human 
Services Association have taken a clear position in support of the 
Title IV-E provisions of this bill.
    For all of these reasons, we urge Congress to include sections 10 
and 13 of S. 2484 in Welfare Reform Reauthorization legislation.
    Thank you for considering this testimony.
    [GRAPHIC] [TIFF OMITTED] 80278.001
    
    [GRAPHIC] [TIFF OMITTED] 80278.002
    
    [GRAPHIC] [TIFF OMITTED] 80278.003
    
    [GRAPHIC] [TIFF OMITTED] 80278.004
    
    [GRAPHIC] [TIFF OMITTED] 80278.005
    
    [GRAPHIC] [TIFF OMITTED] 80278.006
    
    [GRAPHIC] [TIFF OMITTED] 80278.007
    
    [GRAPHIC] [TIFF OMITTED] 80278.008
    
    [GRAPHIC] [TIFF OMITTED] 80278.009
    
    [GRAPHIC] [TIFF OMITTED] 80278.010
    
    [GRAPHIC] [TIFF OMITTED] 80278.011
    
    [GRAPHIC] [TIFF OMITTED] 80278.012
    
    [GRAPHIC] [TIFF OMITTED] 80278.013
    
    [GRAPHIC] [TIFF OMITTED] 80278.014
    
    [GRAPHIC] [TIFF OMITTED] 80278.015
    
    [GRAPHIC] [TIFF OMITTED] 80278.016
    
    [GRAPHIC] [TIFF OMITTED] 80278.017
    
    [GRAPHIC] [TIFF OMITTED] 80278.018
    
    [GRAPHIC] [TIFF OMITTED] 80278.019
    
    [GRAPHIC] [TIFF OMITTED] 80278.020
    
    [GRAPHIC] [TIFF OMITTED] 80278.021
    
    [GRAPHIC] [TIFF OMITTED] 80278.022
    
    [GRAPHIC] [TIFF OMITTED] 80278.023
    
    [GRAPHIC] [TIFF OMITTED] 80278.024
    
    [GRAPHIC] [TIFF OMITTED] 80278.025
    
    [GRAPHIC] [TIFF OMITTED] 80278.026
    
    [GRAPHIC] [TIFF OMITTED] 80278.027
    
    [GRAPHIC] [TIFF OMITTED] 80278.028
    
    [GRAPHIC] [TIFF OMITTED] 80278.029
    
    [GRAPHIC] [TIFF OMITTED] 80278.030
    
    [GRAPHIC] [TIFF OMITTED] 80278.031
    
    [GRAPHIC] [TIFF OMITTED] 80278.032
    
    [GRAPHIC] [TIFF OMITTED] 80278.033
    
    [GRAPHIC] [TIFF OMITTED] 80278.034
    
    [GRAPHIC] [TIFF OMITTED] 80278.035
    
    [GRAPHIC] [TIFF OMITTED] 80278.036
    
    [GRAPHIC] [TIFF OMITTED] 80278.037
    
    [GRAPHIC] [TIFF OMITTED] 80278.038
    
    [GRAPHIC] [TIFF OMITTED] 80278.039
    
    [GRAPHIC] [TIFF OMITTED] 80278.040
    
 Prepared Statement of Hon. Ben Nighthorse Campbell, U.S. Senator from 
          Colorado, Vice Chairman, Committee on Indian Affairs

    Good morning and thank you Mr. Chairman.
    Thank you for holding this oversight hearing on the Personal 
Responsibility and Work Opportunity Reconciliation Act of 1996, better 
known as ``welfare reform''. By now we are all-too-familiar with the 
poor economic conditions in Indian communities:

  <bullet> \\\\\\a jobless rate of 45 percent, and a rate of 80-90 
        percent in the Plains Tribes' economies;

  <bullet> \\\\\\a reservation ``brain drain'' of our brightest Indian 
        youth; and

  <bullet> \\\\\\an anemic reservation economic base in which Indian 
        people cannot get good jobs.

    And, as you know Mr. Chairman, despite some recent success with 
Indian gaming, natural resource development, and other business 
opportunities, most of Indian America suffers from an unemployment rate 
that is five to ten times the national average.
    The welfare reform act was a landmark achievement when it was 
signed into law in 1996. It requires the Department of Health and Human 
Services to authorize and assist Indian tribes in establishing their 
own, unique welfare systems and rules to match the unique circumstances 
of reservation geographies and tribal economies.
    In some respects, the welfare reform act is modeled after the 
successful Indian Self Determination and Tribal Self Governance Acts.
    For the first time, Indian tribes are authorized to design, 
implement and administer their own tribal Temporary Assistance to Needy 
Families [TANF] programs.
    For the first time, Indian tribes receive direct funding to design 
welfare programs that were tailored to the rural and economically 
depressed nature of Indian country.
    Now, 6 years later as we revisit the welfare reform act, the tribes 
are telling us that there can administer these programs and administer 
them well.
    The tribes are also telling us that they do not stand shoulder to 
shoulder with the States when it comes to receiving technical 
assistance and other ``capacity-building'' resources that have been 
made available to the States for decades.
    These funding inequities are preventing the tribes from making 
full, best use of the TANF program and in turn from helping their 
members transition from welfare to work.
    I believe that in administering welfare reform, Congress and Indian 
tribes must work together to enhance opportunities in Native economies 
and provide job opportunities to Indian people.
    That, Mr. Chairman, is real welfare reform.
    In reauthorizing the welfare reform act, we should perfect it and 
make sure that it helps a tribal member with the services he or she 
needs to get and keep a job. Its that simple.
    With that, I look forward to hearing from our witnesses.
    Thank you Mr. Chairman.

                               <greek-d>

</pre></body></html>
